                                                    SENSITIVE BUT UNCLASSIFIED



                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General

                                                 Office of Inspections

                                               Inspection of
                                   The U.S. Mission to the United Nations,
                                                 New York

                                              Report Number ISP-I-11-54A, July 2011




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552.Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                             Harold W. Geisel
                                             Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


                                Table of Contents
Key Judgments                                                                               1
Context                                                                                     3
Executive Direction                                                                         5
   Permanent Representative and National Security Council Member                            5
   The Mission and the Interagency Process: Communication, Coordination, and Cooperation    8
   A Mission with Five Ambassadors                                                         12
Operational Effectiveness                                                                  14
   Strategic Staffing                                                                      14
   Managing Performance                                                                    16
   Maximizing Benefits of Nonpermanent Staff                                               16
   Managing Overtime                                                                       17
   Records Management                                                                      18
   Use of Record Emails                                                                    19
   Destruction or Retirement of Records                                                    20
Policy, Reporting, and Program Implementation                                              22
   Crosscutting Issues                                                                     22
   Military Staff Committee                                                                26
   Economic and Social Affairs                                                             26
   Management and Reform                                                                   28
   Legal Affairs                                                                           29
   Press and Public Affairs                                                                30
   Host Country Relations                                                                  34
Resource Management                                                                        38
   Overall Management                                                                      38
   Financial Management                                                                    40
   Human Resources                                                                         41
   General Services                                                                        42
   Facilities Management                                                                   43
   Protocol and Representation                                                             44
   Information Resources Management                                                        45
Quality of Life                                                                            49
   Equal Employment Opportunity                                                            49
   Morale                                                                                  49
Management Controls                                                                        51
List of Recommendations                                                                    53
Informal Recommendations                                                                   57
Principal Officers                                                                         61
Abbreviations                                                                              62
Appendix: Host Country Files Needing Review                                                63




                                       iii
                           SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


Key Judgments
    •    The U.S. Mission to the United Nations in New York (USUN) 1 has been at the forefront
         of what President Obama termed America’s “new era of engagement.” It has achieved
         concrete results that advance U.S. foreign policy objectives and Americans’ security.

    •    The Permanent Representative’s participation in National Security Staff and Principals
         Committee meetings increases her effectiveness at the United Nations.

    •    The Permanent Representative set up special policy adviser structures in Washington and
         New York to support her Cabinet role. The Washington advisers’ roles have some
         inherent overlap with the mandated responsibilities of the Bureau of International
         Organization Affairs (IO). Despite the bureaucratic tension this arrangement generates,
         the Washington office gives the Permanent Representative the support, flexibility, and
         level of engagement that she wants.

    •    The base budget of USUN has declined in both real and inflationary terms since FY
         2001. Little of the base budget is discretionary, and the result is that paltry funds are
         available for important training, unexpected travel, or routine procurement. Moreover, the
         budget decline over many years is counterintuitive, considering the level of U.S. interests
         and engagement in the United Nations.

    •    USUN has been unable to recruit and retain the Foreign Service officers it needs due to
         the limited number of positions eligible for the mission’s housing program and the
         requirement, not imposed on other U.S. Government employees assigned temporarily to
         New York, to pay Federal taxes on housing allowances.

    •    Although USUN staff is adept at handling an unending stream of policy and humanitarian
         crises, over many years, neither the mission’s leadership nor individual section chiefs
         have given sufficient attention to management of the mission’s people and processes.

              For many years USUN has focused few resources and little attention on training
               mission staff, leaving some in jobs for which they lack sufficient skills and others
               without an opportunity to upgrade or refresh their knowledge.

              USUN has not had a strategic approach to workforce planning and has refilled
               vacancies without considering mission priorities and reprogramming options.

              Historically, USUN has neglected to address its records management
               shortcomings, and the mission’s work is complicated by insufficient email storage
               capacity and a lack of standardized paper and electronic filing protocols.



1
  There are several U.S. Missions to the United Nations worldwide, but for the purposes of this report, references to
the U.S. Mission to the United Nations (USUN) are understood to refer to the mission in New York.
                                                1
                                   SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


   •   USUN regularly uses task forces to organize responses to crises, such as the Haiti
       earthquake or the Libyan insurrection. The management and reform section is
       spearheading a task force on UN management issues that may serve as a model for other
       intramission focus groups and simultaneously improve stove-piped communications.

   •   USUN successfully communicates U.S. policy positions to domestic and foreign
       audiences but needs to take a more strategic approach to public diplomacy and outreach.


        All findings and recommendations in this report are based on conditions observed during
the on-site review and the standards and policies then in effect. The report does not comment at
length on areas where OIG did not identify problems that need to be corrected.

     The inspection took place in Washington, DC, between April 5 and May 13, 2011, and in
New York, New York, between May 16 and June 10, 2011. (b) (6)




                                          2
                             SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


Context
       USUN has been at the forefront of what President Obama termed America’s “new era of
engagement.” It has achieved concrete results that advance U.S. foreign policy objectives and
American security. The dividends of current U.S. leadership at the United Nations are tangible,
including a no-fly zone and authorization of military force to protect civilians in Libya that
prevented potential mass atrocities; the toughest UN sanctions ever against Iran and North
Korea; renewed momentum to stop the proliferation of nuclear weapons and materials; a
coordinated global effort to help Haiti recover and rebuild; UN engagement for the historic and
peaceful referendum for independence in Southern Sudan; vital UN assistance in Afghanistan
and Iraq; and progress to reform the flawed UN Human Rights Council. Long-time observers of
USUN have commented that, in advancing the President’s policy, the mission has registered
successes that those observers would not have thought possible in the past and might have
recommended against even trying.

         The mission has improved relations with a broad range of countries, including by
increasing contacts with representatives of nearly all of the other 191 delegations and senior UN
officials. The mission has conveyed a message that the United States is determined to listen and
work in good faith to make the United Nations a more effective and principled forum for
addressing pressing global challenges. These changes have been accompanied by a meaningful
shift in approach that advances U.S. interests and values and demonstrates a commitment to
meeting international obligations. Such changes have made it easier for the mission to secure
agreement and burden sharing on matters of strategic importance (b) (5)



       Engagement with the UN Secretariat has intensified as the United Nations total annual
budget has more than doubled over the past decade, largely due to an increase in the number of
peacekeeping operations. 2 There is more on the UN agenda than in the past, and that enhanced
agenda has imposed significant additional demands on USUN. The Security Council’s workload
has expanded considerably, with more than double the number of meetings, resolutions, and
Presidential statements of two decades ago. Over the past decade, there has also been a major
increase in work related to UN sanctions, with an expansion from one to nine UN sanctions
panels of experts to monitor and report on implementation.

       Likewise, the General Assembly and its subsidiary committees have increased their
programs of work significantly, highlighted by a 20 percent growth in the number of resolutions
over the past decade. The operational work of the UN system has also expanded into new areas,
including global issues as diverse as HIV/AIDS, climate change, genocide, peacebuilding, and
counterterrorism.

        An increased level of U.S. engagement in the United Nations has generated the need for
higher levels of communication, coordination, and cooperation across U.S. agencies. USUN, IO,

2
 The UN program budget for the 2001–2002 budget year was $2.7 billion; the peacekeeping budget for the same
period was $2.6 billion. The UN program budget for the 2010–2011 budget year was $5.1 billion; the peacekeeping
budget for the same period was $7.8 billion. The UN fiscal year runs from July 1 to June 30.
                                               3
                                  SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

and National Security Council (NSC) staffs maintain almost constant communications every day.
The Departments of Defense and Treasury, as well as other government agencies, play greater
roles in advancing U.S. objectives at the United Nations. Sustaining the required level of
communication and coordination among all these entities adds to the demands and stresses on
USUN staff.

        Even as the level of UN activity and budgets has grown dramatically, USUN’s overall
staffing has remained virtually unchanged in the past 10 years. As a result, many mission officers
endure 60-hour weeks and longer and more intense periods of crisis management. They face
increasing difficulty keeping pace with initiatives emanating from the Security Council, the
General Assembly, the Economic and Social Council, and other intergovernmental bodies. The
mission’s budget, even when adjusted for inflation, has declined over the same period.

        At about 150 diplomatic, technical, and administrative professionals, mission staffing is
lean. In the past two Mission Strategic and Resource Plans, mission leadership sought an
increase of five positions distributed among the political, economic and social affairs
(ECOSOC), 3 and host country sections, and in the regional security office. Although the mission
has made strong cases for these new positions, and the inspection team endorses them, the
Department of State (Department) is not likely to satisfy all of USUN’s personnel requests.
However, the inspection team believes the mission can address some of its expanded staffing
needs through reprogramming of existing positions, even as it pursues new positions from
Washington.




3
 The UN’s Economic and Social Council is known as ECOSOC; USUN has also given this abbreviation to the
section that covers ECOSOC issues.
                                             4
                                SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Executive Direction
Permanent Representative and National Security Council Member

        The current Permanent Representative to the United Nations is the 14th, and the 1st since
early 2001, to hold Cabinet rank. The Cabinet-rank designation is useful at the United Nations,
where many countries’ permanent representatives have themselves already held Cabinet rank in
their own governments or where, by tradition, many return home to assume ministerial positions.
For the current U.S. Permanent Representative, the rank has special significance because her
counterpart permanent representatives know that she regularly participates in the highest levels
of national security policy development. In one instance, where she joined a Security Council
debate after coming directly from the airport and an NSC Principals Committee meeting in
Washington on the subject of the debate, there was no doubt in any of her 14 counterparts’ minds
that she was speaking on instructions from the highest level of her government.

        The Permanent Representative’s Cabinet-rank status requires her to participate regularly
in Principals Committee meetings in Washington. These meetings number far more than she can
attend herself, given the demands of her Security Council role.(b) (5)

                         She speaks at events outside New York, and she travels with other
country permanent representatives and senior UN officials for UN-related activities. As a result,
(b) (5)




          (b) (5)




                                                                            This daily schedule
of meetings can be grueling; however, considering the perpetual crisis mode in which the
mission operates, as well as frequent changes in the schedule of UN meetings and events and the
importance the administration attaches to interagency coordination, they provide an essential
communication function.

         Whether she is in New York or Washington, the Permanent Representative’s calendar is
full of official meetings and working social events that require her participation. She works
closely on specific issues with mission staff involved in the work of the Security Council, the
General Assembly, and ECOSOC, but she has fewer opportunities to engage directly with others
in the mission. To address this gap, she meets mission staff periodically in town hall meetings.
The most recent town hall meeting occurred just before the start of the inspection and used a new

                                          5
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

format, with section chiefs talking about their sections’ activities and achievements. This
approach generated a livelier exchange that all welcomed. The Permanent Representative
communicates with USUN staff primarily through memoranda or emails. Mission staff
appreciates her quick responses to emails on urgent matters. In the past few months, executive
office staff devised much-appreciated ways to provide mission employees more direct, written
feedback. Many mission staff members indicated that they would like more opportunities for
quick, face-to-face discussion with the Permanent Representative but that they understand her
schedule is so filled with UN activities in New York that there is limited time for such direct
interaction.

        The Permanent Representative expressed concern that the new USUN building layout
makes intramission communication more difficult. Inspectors discussed with her and her senior
staff additional activities that might complement town hall meetings and potentially increase
interaction and communication missionwide. However, the physical structure of the new USUN
building itself and the restricted movement between floors pose a challenge to communication
that requires constant imagination and effort to address.

        The Permanent Representative drew on her previous experience at both the Department
as Assistant Secretary and the NSC as senior director to develop special staff structures in New
York and Washington to support her Cabinet role. The special staff in New York consists of a
chief and a deputy chief of staff, three policy advisers, a special assistant, and two schedulers, all
but one of whom are political appointees, plus an executive secretary and staff assistant, both
career Foreign Service. USUN/W has a senior Foreign Service deputy to the Permanent
Representative and seven political appointee staff: a deputy chief of staff/counselor; four policy
advisers, one of whom is also the speechwriter; a special assistant; and an office manager. Some
of these staff members feel this level of staffing is inadequate to support the Permanent
Representative in her NSC role. Although the Permanent Representative’s New York and
Washington staffs work long and stressful hours, including nights, weekends, and holidays, the
level of staffing has provided the Permanent Representative a reasonable level of support for her
special responsibilities. Growth in that staff may not be realistic, given overall limits on
Department staffing.

        The Permanent Representative’s New York staff is concentrated on the executive floor of
the mission. Many in the mission have difficulty distinguishing between policy advisers and the
support staff and do not have a clear sense of their duties. (See the Operational Effectiveness
section for an informal recommendation.) There is a perception among some mission staff that
the policy advisers and support staff have greater access to the Permanent Representative and
more input on a wide range of policy issues than career staff. Because executive office staff
members have direct, daily contact with the Permanent Representative that many others do not,
such a perception is difficult to overcome. The difficulty is compounded by the building’s
configuration and the physical isolation of all USUN floors.

         USUN shares many characteristics with U.S. embassies overseas, with an ambassador
who is the chief of mission, and political, economic, management, and other sections managing
distinct issues, and a contract guard force. However, USUN is very much a domestic Department
entity. It has a total of five Senate-confirmed ambassadors, including the Permanent

                                            6
                               SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

Representative. It is staffed with a mix of Foreign Service, excepted service, 4 political appointee,
and contract employees; none has diplomatic privileges and immunities, and all are subject to
rules that apply to government employees working in the United States. Mission staff members
interact with diplomats of nearly 200 countries, but they are accredited to an international
organization. Some Foreign Service staff members receive housing support, but unlike overseas,
there are personal tax consequences because this is a domestic assignment for them.

        Like the ambassador at an overseas mission, the USUN Permanent Representative
received a Presidential letter of instruction. That letter is intended to spell out the responsibilities,
authorities, and obligations of a chief of mission. Such Presidential letters have an important
function both in instructing a chief of mission and in defining the chief of mission’s authorities
with respect to representatives of other U.S. agencies. The current Permanent Representative
received her Presidential letter of instruction in 2009. It was based on the letter used for overseas
chiefs of mission. Some of those instructions, including promoting the export of U.S. goods and
services and protecting U.S. citizens in the country of assignment, are not relevant in a domestic
U.S. setting. The 2009 letter did not address her responsibilities or authorities with respect to the
United Nations or her Cabinet-rank status.

        There is no off-the-shelf Presidential letter of instruction that addresses the unique
situation of leading a diplomatic mission within the United States. There are, for instance,
directives about communication with the United Nations in the Foreign Affairs Manual (5 FAM
220) that deserve to be highlighted in the letter of instruction, especially because most U.S.
permanent representatives, historically, have not been career diplomats. Similarly, the letter of
instruction is important in outlining the relationship between USUN and IO, especially when a
permanent representative is a Cabinet-rank official and outranks the IO Assistant Secretary. 5 The
absence of a tailored letter of instruction has not affected the ability of the current Permanent
Representative or the mission to do their jobs; however, the absence of such a letter has
undermined the credibility of that instrument to instruct or inform the incumbent, as well as other
agencies of the government that work with her. It also has not defined authoritatively for mission
and Department staffs the responsibilities, authorities, and obligations of a permanent
representative.

        The intranet Web site of the Bureau of Administration indicates that a separate
Presidential letter of instruction for USUN permanent representatives is in preparation. All
relevant Department elements will review and clear an existing draft letter of instruction once it
is revised to take account of the Quadrennial Diplomacy and Development Review. Neither IO
nor USUN leaderships have been involved in this process to date. Given the extraordinary nature
of the diplomatic work of USUN in New York and the importance of the United Nations to U.S.

4
  All but one of USUN’s non-Foreign Service staff members fall into the excepted service or General Grade (GG)
category. GG is a pay plan used by the Department to denote a pay schedule similar to the General Schedule.
Employees under the GG pay schedule are generally not covered by Title 5 laws, rules, and regulations. There is
greater flexibility when it comes to hiring a GG, but they are treated like regular Civil Service for pay and
performance purposes.
5
  Department standard 1 FAM 331.1(2) states that the IO Assistant Secretary “… leads in the development,
coordination, and implementation of U.S. multilateral policy and formulates and implements U.S. policy toward
international organizations, with particular emphasis on those organizations which make up the United Nations (UN)
system.”
                                               7
                                  SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

interests, a Presidential letter of instruction will guide and strengthen the efforts of future
permanent representatives.

Recommendation 1: The Office of Management Policy, Rightsizing, and Innovation, in
coordination with the Bureau of International Organization Affairs, the U.S. Mission to the
United Nations, and the Office of the Legal Adviser, should draft and clear a tailored Presidential
letter of instruction for the Permanent Representative. (Action: M/PRI, in coordination with IO,
USUN, and L)

        As noted earlier, the Permanent Representative has created special staff structures in both
New York and Washington to facilitate her dual roles as a Cabinet-rank officer and as a
permanent representative. Over the past several decades, the size and roles of those staffs have
fluctuated to reflect the needs of different permanent representatives and, where that person has
also held Cabinet rank, to provide additional support. Permanent representatives without
Cabinet-rank status have generally had about three support staff members in each of their offices
in New York and Washington. Staffing levels for permanent representatives with Cabinet rank
have been larger. However, there are no models to guide staffing. Instead, when the President
decides that a permanent representative will also be a Cabinet member, the Department responds
by providing additional political appointee positions on a temporary basis, if requested. The
Department also provides some additional budget support, for example, for representation, but,
in general, IO does not receive a larger budget allocation for the additional expenses related to a
Cabinet-rank permanent representative. The Bureau of Diplomatic Security has additional
responsibilities for the personal protection of a Cabinet-rank officer; providing a protective detail
has budget implications for that bureau as well.

        Although ad hoc arrangements have worked, they do not reflect good business practice or
a prudent approach to resource planning. Neither incoming permanent representatives nor IO
leadership has a clear sense of what is normal or how to support or budget for the two scenarios.
There is now adequate historical information available for the Department to know broadly what
levels of staff, office space, budget, and other support are needed for permanent representatives
with and without Cabinet status. Having standing guidance available will smooth and speed the
transition process for future permanent representatives.

Recommendation 2: The Bureau of International Organization Affairs, in coordination with the
U. S. Mission to the United Nations, the Bureau of Diplomatic Security, and the Office of the
Under Secretary for Management, should develop standing guidance for support staffing in New
York and Washington and budgeting for permanent representatives with and without Cabinet
rank. (Action: IO, in coordination with USUN, DS, and M)

The Mission and the Interagency Process: Communication, Coordination, and Cooperation

        The United Nations is engaged in a broad array of activities that affect U.S. interests and
for which the United States provides the largest individual country share of budget support. This
administration also gives high priority to increasing U.S. standing and effectiveness in
international organizations. USUN has been particularly successful in accomplishing that goal.
One reason for this success is communication, coordination, and cooperation at senior levels of
USUN, IO, other Department bureaus, NSC staff, and other agencies. (b) (5)
                                            8
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

(b) (5)




        Among the Permanent Representative’s initiatives is the placement of policy advisers in
both the New York and Washington offices. The advisers are not recruited as subject matter
experts, but they bring to their jobs experience that the Permanent Representative values. For
instance, two of the three current policy advisers in New York came from the United Nations,
giving them extraordinary insights as well as a list of quality contacts. In New York, the advisers
have focused on longer range issues, with a more strategic approach than is generally possible in
USUN’s usual crisis mode. In Washington, the advisers focus on support to the Permanent
Representative in her role as an NSC member. In addition to her Washington deputy, who
regularly attends Deputies Committee and other high-level policy discussions, the policy
advisers represent the Permanent Representative in interagency policy committees, small groups,
and other interagency meetings that feed information and recommendations into the policy-
making processes.

        The New York policy advisers generally have been able to work out divisions of labor
between themselves and action officers in USUN’s other sections that avoid competition or
duplication of effort. The policy advisers attend some section meetings or join cross-sectional
working groups where issues and responsible action officers are clarified. In Washington, the
policy advisers are more directly involved in the interagency policy process and are committed to
give the Permanent Representative what she needs to operate at the level she desires in the
national policy-making process.

U.S. Mission to the United Nations/Washington Office

         The size and role of USUN/W has varied over many years. In the previous
administration, a small USUN/W office served primarily to support permanent representatives
when they visited Washington. In early 2009, the current Permanent Representative developed a
plan for the Washington office and had her staff in place more quickly than many other senior
staff in the Department. Consequently, USUN/W began to play an active role in the policy
process almost immediately. Given the 8-year period where permanent representatives did not
have Cabinet rank, USUN/W initially met with confusion and, on occasion, resistance from some
Department bureaus. There was no Foreign Affairs Manual or other standing instruction for
USUN/W. Presidential Policy Directive – 1 of February 13, 2009, codified the Permanent
Representative’s policy involvement and the USUN/W deputy’s place in the Washington policy-




                                           9
                              SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

making process. 6 Some parts of the Department adjusted to the Permanent Representative’s
expanded role, while others, and some agencies, questioned the extent of USUN/W’s
engagement on her behalf.

        Even though USUN/W primarily supports the Permanent Representative in her NSC role,
USUN/W staff also engages on UN issues for which IO is responsible to provide guidance and
instructions. Coordination among USUN and IO leaders is generally good. The front offices of
USUN and IO are in contact daily, and the USUN/W deputy has three weekly meetings
scheduled with the IO Assistant Secretary.

        The Permanent Representative expects USUN/W first and foremost to support her as a
member of the NSC Principals Committee. In that regard, USUN/W’s scope encompasses the
full range of U.S. foreign policy and national security issues—not just those limited to the United
Nations. USUN/W staff members have contacts across the Department and with other agencies
that have national security responsibilities. Like the Permanent Representative herself, they are
in the Department but also have an independent identity. In carrying out their duties, USUN/W
staff members find themselves simultaneously working directly for one Cabinet member while
being paid by and physically present in the offices of another. They create conditions for the
Permanent Representative’s successes at the United Nations while also coordinating and
cooperating with the Secretary’s most senior officials, including the IO leadership, which has the
Department’s designated lead in developing, coordinating, and implementing U.S. multilateral
policy.

        USUN/W has worked out its roles in the interagency process and in the Department
without the benefit of established guidelines. The resultant lack of clarity about USUN/W’s role
and responsibilities affects the quality of communications, particularly with IO; some USUN/W
staff members work smoothly and inclusively with their IO counterparts and others less
effectively.

         Some offices and individual employees in IO feel marginalized, even on issues where
they have considerable experience and expertise. Because of the unique nature of this
institutional arrangement, there have been instances of misunderstanding and
miscommunication.

        Despite the bureaucratic tension this arrangement generates, the United States is
achieving its objectives at the United Nations with better results than many anticipated and the
kinds of results the administration wants. USUN/W gives the Permanent Representative the
support, flexibility, and level of engagement that she wants. In these circumstances, it is difficult
for the inspection team to develop recommendations that might lead to better outcomes.

      That said, there are areas where USUN/W’s coordination and cooperation with IO could
improve. For instance, USUN/W policy advisers attend many interagency meetings that do not

6
 Presidential Policy Directive – 1 directs the organization of the National Security Council System, including
designating the Permanent Representative as a member of the NSC and the NSC Principals Committee and the
deputy to the Permanent Representative as a member of the NSC Deputies Committee.

                                               10
                                   SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

include representatives from IO. The advisers may learn of outcomes well before Department
processes inform IO of taskings from the meetings. USUN/W tries to alert the appropriate offices
of impending assignments when turnaround may be urgent. USUN/W policy advisers have also
worked directly with regional bureaus on UN-related issues that are time sensitive, either
because a Principals Committee meeting is imminent or an issue is on the UN agenda that day or
the next. On occasion, some of the policy advisers in Washington bypass traditional IO action
offices because they have interagency or Department contacts who they know can provide
answers without the intermediation of IO or because they believe time is of the essence and feel
they cannot wait for customary Department processes to work. The Permanent Representative is
often the designated administration spokesperson on an issue, and normal processes of drafting
and clearances are suspended. USUN/W advisers have tasked IO or USUN action officers
directly for background or information outside their areas of expertise. On occasion, USUN/W
staff members are included as clearers on written products that are also being cleared by USUN
in New York. These situations create unnecessary confusion and delay. In recent months, the
USUN chief of staff has worked to harmonize relations among USUN, IO, and USUN/W. There
is now an understanding, for instance, that USUN/W will channel requests for information
through USUN section chiefs and that, if USUN clears an item, a USUN/W clearance is not
required.

       Informal Recommendation 1: The U.S. Mission to the United Nations should share with
       the Bureau of International Organization Affairs on a case-by-case basis the results of
       interagency meetings to which it has special access when that bureau will have to take
       action and when time is of the essence.

       Informal Recommendation 2: The U.S. Mission to the United Nations should provide
       clear guidance on when its Washington policy advisers need to clear documents that have
       been prepared by or will be cleared by the U.S. Mission to the United Nations.

Taking Time to Plan in New York

         Among other duties, policy advisers in New York have responsibility for planning.
Working closely with mission sections, they developed a planning document for the 64th UN
General Assembly session in 2009 that identified issues and opportunities, including how best to
leverage the participation of the President, Secretary of State, and Permanent Representative in
their first UN General Assembly session. They developed a similar plan for the 65th session.
One policy adviser also worked with the then-recently arrived Ambassador for ECOSOC in the
spring of 2010 to develop a strategic plan for that section that identified four key goals, major
events and ongoing USUN work related to those goals, and opportunities for the mission to
exploit that year. The policy advisers coordinated development of the Mission Strategic and
Resource Plan for 2012 and for 2013. The coordination process for the 2013 plan involved
sending portions of the 2012 plan to mission sections for updates and revisions, preparing a new
draft, including a new chief of mission statement that detailed achievements of the previous year,
and clearing the near-final text through the mission. Many overseas missions find ways to
discuss an upcoming Mission Strategic and Resource Plan before it is written, thereby building
communication across sections and getting buy-in to the document from the outset. USUN itself
had a productive off-site in 2009 that fed into preparation of the 64th UN General Assembly
strategy document. Mission staff members believe discussion strengthened that document.
                                         11
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Similarly, the Mission Strategic and Resource Plan would be more than the result of a paper
process if a more inclusive discussion preceded its preparation.

       Informal Recommendation 3: The U.S. Mission to the United Nations should use the
       Mission Strategic and Resource Plan exercise to improve intramission communication
       and collaboration by organizing a discussion of goals and accomplishments prior to the
       start of drafting.

        For a mission operating in perpetual crisis mode, a position or positions with
responsibility for planning in the executive office represents a significant, but very worthwhile,
investment. Such a position did not exist in the recent past, and there may be an understandable
preference in such an overstretched mission for action officers over planners in the future.
However, the function has been valuable, and elsewhere in this report the inspection team
recommends that ECOSOC and other sections develop individual section plans to organize and
direct their activities. It is important to institutionalize a planning capability even if future
permanent representatives choose not to include a planner position in their executive offices.

       Informal Recommendation 4: The U.S. Mission to the United Nations should determine
       how best to sustain an internal strategic planning capability.

A Mission with Five Ambassadors

        In addition to the Permanent Representative, the mission has four other ambassadors who
must receive Senate confirmation. The Deputy Permanent Representative shoulders an enormous
workload. This is the only one of the five ambassador positions to which Presidents regularly
appoint a Foreign Service officer. The current Deputy Permanent Representative, a career
officer, represents the mission on a wide range of UN activities. Security Council attention to
issues traditionally covered by deputy permanent representatives, such as the Middle East, has
increased dramatically and expanded the number of meetings, diplomatic exchanges, and phone
calls on her agenda. Although no USUN position bears the title, the Deputy Permanent
Representative provides a deputy chief of mission-like or chief operating officer function with
respect to the host country, legal, and management sections and the regional security office.
Career employees frequently seek her counsel. Despite her already full schedule of official
events, she is always accessible, and her openness builds mission morale. In some instances, she
has served as a bridge between the worlds of the mission’s career and political employees.

        The three remaining ambassadors are associated with the political (mainly Security
Council issues), ECOSOC, and UN management and reform sections. These ambassadors
traditionally have not been career employees. They bring a variety of expertise, experience, and
interests to their positions.

        The United Nations is a hierarchical organization. Ranks and titles count. Titles can be as
compelling as message. In this environment, five Senate-confirmed ambassadors are needed to
ensure that the United States is represented at the necessary level in the many UN meetings
where U.S. interests are paramount. Ambassadors frequently deliver statements prepared in
Washington and on issues where they do not have expertise. They rely on their staffs, who will
have engaged with their counterparts in Washington to prepare statements and related
                                          12
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

background materials, to give them information they need to represent the United States
effectively.

        The political, ECOSOC, and management and reform sections all have senior Foreign
Service or excepted service leadership positions in addition to the respective ambassadors. Those
career officers, and in some sections their deputies, are responsible in theory for providing day-
to-day leadership and management of the sections. The extent to which the three ambassadors
are involved in the policy process that leads to their participation in UN meetings varies. Some
become deeply engaged with their section’s individual issues officers. They tend, however, not
to lead their sections in the way a counselor would lead a section in an overseas mission.
Because of the variety of backgrounds, styles, and expectations of the ambassadors and senior
section staff members, there is no single model for the working relationships between them. Nor
have permanent representatives historically demanded a one-size-fits-all approach as long as the
sections accomplish the mission’s work.

         USUN adapts its finite resources almost day by day to the growing demands of the UN
agenda. Its policy successes are impressive. Its staff works incredibly hard. There is a palpable
spirit of cooperation between USUN and other diplomatic missions and with the United Nations
itself. USUN has been able to win support for U.S. positions on some issues that would not have
been possible in the past. With so much attention and manpower devoted to achieving important
policy goals, USUN has traditionally paid less attention to its own overall operational
effectiveness. There has never been a single model for management of the individual sections or
the information they handle. Given their structures, with subunits and deputies, both Foreign
Service and excepted service section chiefs have some deputy chief of mission-like
responsibilities and obligations in their sections, but accountability has not been incorporated
into expectations or performance appraisals. The next section of this report puts forward internal
management improvements that are designed to redress long-standing inattention to building an
effective operational infrastructure.




                                          13
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Operational Effectiveness
         Historically, most of the mission’s section chiefs and deputies, both Foreign Service and
excepted service, have been selected based on their subject area expertise. This selection
criterion is understandable in light of the policy and negotiating focus of the mission’s high-
visibility work. The busiest work places, however, require the greatest degree of ongoing
management attention in order to adapt resources, both human and financial, to evolving
demands and changing needs. Although each USUN section has identified at least one senior
staff member to oversee the section’s management, in reality those individuals are often the same
ones managing the most complex policy issues or leading time-consuming negotiations. Time-
sensitive and high-visibility issues will always take priority over long-term planning. Issues like
reviews of staffing levels and assignments, the development of training continuums, and the
counseling and mentoring of underperforming employees get short shrift.

Recommendation 3: The U.S. Mission to the United Nations should identify the most
appropriate officer in each section to oversee the full range of management issues for that
section, make management one of the top two items of that officer’s work requirements or
critical performance elements, specify management performance objectives for the rating period,
and survey section staff as part of evaluating the officer’s performance. (Action: USUN)

        The remainder of this section of the report discusses several areas where sustained
management attention could rectify systemic staffing, performance, budget, and records
management shortcomings. Although each of the following recommendations is operational,
taken together and implemented, they have the potential to address many of USUN’s most urgent
staffing needs, redirect funding to higher priority activities, and institutionalize the handling of
some of the mission’s most important records.

Strategic Staffing

         Mission staffing has remained nearly constant for the past 10 years, despite renewed
interest in multilateral diplomacy and a more extensive UN calendar. Although some additional
positions are requested each year in the Mission Strategic and Resource Plan, few have been
added because a stagnant USUN budget has allowed for little growth (see the Resource
Management section for a more complete discussion of budget planning.) In addition to
employee numbers remaining constant, so has the mix of positions within the mission, despite
changes in both policy and technology that might drive staffing in a different direction. As a
result, some employees are not well used, and others are required to work additional hours to
compensate. Over the years, the mission has done little strategic personnel planning and has
tended simply to refill vacant positions without considering reprogramming options. As a result,
USUN’s current leadership has inherited an outdated personnel mix and no process to redress the
imbalance or solve some of its own staffing needs. Reprogramming could allow the mission to
fill a more urgent need in the same section or an even greater need in another section of the
mission.




                                          14
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 4: The U.S. Mission to the United Nations should convene an ad hoc
working group, chaired by the Deputy Permanent Representative, when vacancies occur to
determine whether to refill positions or reprogram them. (Action: USUN)

Recommendation 5: The U.S. Mission to the United Nations, in coordination with the Bureau
of International Organization Affairs and the Bureau of Human Resources, should reprogram
positions to support the policy and management needs of the mission. (Action: USUN, in
coordination with IO and DGHR)

        USUN has many excellent and long-serving employees who provide the mission with
valuable institutional knowledge and consistency. In many offices, however, employees’ duties
have changed or should change in response to new initiatives or technology that add, alter, or
reduce employee workloads. Related to the discussion above, few section managers have
analyzed whether they continue to have the right mix of positions to maximize productivity and
efficiency. Current excepted service position descriptions often reflect neither the reality nor the
current requirements for positions.

Recommendation 6: The U.S. Mission to the United Nations, in coordination with the Bureau
of International Organization Affairs and the Bureau of Human Resources, should establish a
timeline, perform desk audits, and update all excepted service position descriptions. (Action:
USUN, in coordination with IO and DGHR)

        Political appointee positions have job descriptions for position classification purposes
when established, but they do not require specific job descriptions, leaving roles undefined. This
lack of definition provides the executive office much-needed flexibility, but the corresponding
lack of transparency creates confusion for some others in the mission who do not always know
with whom to coordinate on potentially overlapping issues.

       Informal Recommendation 5: The U.S. Mission to the United Nations should clarify the
       roles and responsibilities of each member of the executive office staff and publish that
       information throughout the mission.

        There are 18 mission positions classified as secretarial or office management assistant.
Some employees in these positions are not up to date with the latest electronic programs,
requiring others in the section to perform duties that a secretary or office management assistant
would typically perform. Some position descriptions do not require secretaries and office
management specialists to serve as the section’s administrator for eCountry Clearance,
ePerformance, and e2 Solutions travel programs, although these are standard secretarial or office
management assistant responsibilities. Most incumbents have had little recent training and, in
some cases, have not attended information technology courses offered within the mission.
Additional computer skills training would also create opportunities for secretaries and office
management assistants to coordinate a section’s electronic records management program.

Recommendation 7: The U.S. Mission to the United Nations should devise standard elements
for all secretary and office management specialist position descriptions and critical performance
elements, in addition to those specific to individual offices, and revise the position descriptions
and job elements accordingly. (Action: USUN)
                                          15
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Managing Performance

         In a mission where 80 percent of the staff are excepted service employees whose careers
might span 20 years or more in the same job, supervisors have been inconsistent in dealing with
performance issues. Many sections that are composed primarily of excepted service employees
are headed by Foreign Service officers who are unfamiliar with the Civil Service appraisal
system. Because Foreign Service officers usually serve 3-year tours of duty at USUN, they may
also be hesitant to address long-standing performance issues. Managing performance through
accurate and timely performance evaluations, an equitable distribution of work, and the use of
performance improvement plans is not always the norm. As a result, some employees lose out on
the counseling, mentoring, and training that they need to be fully successful in their positions or
to adapt to changing priorities and technologies. In some cases, employees have been promoted
into positions for which they are ill suited or retained in positions where they are not meeting
minimum requirements, but supervisors over the years have adapted performance requirements
to skills the employee has rather than skills the section needs. The Foreign Service Institute has
two new courses that target managers of Civil Service employees: ePerformance for Civil
Service (PA-449) and Civil Service Performance Management and Evaluation Process (PA-495).

Recommendation 8: The U.S. Mission to the United Nations should require all Foreign Service
officers who are first-time Civil Service supervisors to take the Foreign Service Institute’s online
training courses PA-449 and PA-495 and monitor for successful completion of the modules.
(Action: USUN)

       Informal Recommendation 6: The U.S. Mission to the United Nations should document
       delinquent performance evaluations and any failures to conduct required counseling
       sessions in the performance evaluations of the responsible supervisors.

       Informal Recommendation 7: The U.S. Mission to the United Nations should train all
       supervisors in the appropriate use of performance improvement plans.

Maximizing Benefits of Nonpermanent Staff

       USUN makes use of a wide variety of unpaid and paid nonpermanent staff, including
summer, autumn, and spring interns; Pickering Fellows; Presidential Management Fellows for a
few months at any time of the year; Franklin Fellows for a year or more at any time; temporary
duty personnel and retired officers for a few months each year; and longer term exchanges from
other agencies. USUN’s location in vibrant New York City and the mission’s work with the
world’s leading multilateral body make it attractive to nonpermanent staff who, in turn, help the
mission cope with an increased workload and peak-season surges without a corresponding
increase in permanent staff.

        No one part of the mission coordinates the recruitment of nonpermanent staff. The
orientation process is perfunctory (largely a check-in and document-based process) for the
newcomers, and there is no formal follow-up for newcomers to share experiences during their
stay and compile lessons learned. The human resources unit handles the intern program and
provides a 1-day program that is billed as orientation but is really only enhanced check-in. The
orientation does not include an introduction to the USUN structure or how USUN relates to what
                                          16
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

happens in the United Nations. Recruiting Franklin and Presidential Management Fellows is
largely ad hoc, without coordination through either the executive officer or the human resources
unit. Thus, some sections attract enough nonpermanent staff, while other sections go lacking; in
some cases offices are recruiting the wrong kind of employee for the type of work they need
done.

        Duties and responsibilities assigned to interns and fellows are a mixed bag. Some interns
and fellows are given significant responsibilities, whereas others are used largely on clerical
tasks. For the three fellows programs, for example, the mission commits to meeting certain
program requirements, but some mission managers are unaware of the distinctions among the
types of nonpermanent employees and the kind of work that is appropriate for each.

        The lack of a structured orientation program means that some newcomers, particularly
interns and fellows, are less likely to understand and benefit from their assignments and thus are
less likely to consider future careers in the Department. Once interns and fellows are on board,
there are few ongoing activities designed for them, either to facilitate an exchange of ideas or to
enhance their USUN experience, such as group discussions or speaker programs. The human
resources unit could draw on volunteers from various sections of the mission, including more
experienced nonpermanent staff, to assist in this effort. The lack of a coordinated approach to the
recruitment and development of nonpermanent staff hinders USUN’s ability to get the right type
of personnel for the tasks at hand and to set the correct expectations for both the nonpermanent
staff and the receiving office.

Recommendation 9: The U.S. Mission to the United Nations should develop a management
policy and procedures for the recruitment, orientation, and development of nonpermanent staff.
(Action: USUN)

Managing Overtime

        In FY 2010, USUN spent approximately $300,000 on overtime. To date, FY 2011
overtime expenditures are comparable. Paid overtime represents only a portion of the mission’s
overtime, however. Employees at higher grade levels cannot be paid for extra hours worked but
earn compensatory time off. In either case, overtime involves significant cost to the mission,
financially or in lost hours during regular work time. During the UN General Assembly or other
major UN events throughout the year, some overtime is essential, with negotiating sessions often
lasting late into the night.

        USUN’s secretarial and information management staffs consume the largest portion of
paid overtime, whereas the mission’s negotiating officers accumulate the most compensatory
time, which they are often unable to use before it expires. Most of the secretarial and information
management overtime is in support of the executive office. Much of the secretarial overtime
results from the tradition of supporting principals until they are ready to leave the office even if
there is only enough work for half of the support staff. A rotating roster of evening staff could
cover any eventualities.

         The mission does not have a mechanism to plan for or limit unnecessary overtime. As a
result, the mission incurs excessive overtime expenditures while failing to fund other important
                                          17
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

program-related priorities. In FY 2010, USUN spent only $9,000 on training, and by June 2011,
had spent only $4,000 on training for the fiscal year—far too little for an organization with more
than 150 employees (see the discussion of budget and training in the Resource Management
section).

Recommendation 10: The U.S. Mission to the United Nations should establish an overtime
budget baseline and document monthly comparisons of usage against that baseline. (Action:
USUN).

        Although this report recommends better management of unnecessary overtime,
employees in at least two of the mission’s sections have not been tracking overtime usage
routinely because they believe that they are not entitled to compensation for extraordinary hours
of work or that they are unlikely to be granted any compensatory time earned due to the press of
work. In the case of ECOSOC, this failure to document overtime affects the mission’s ability to
apply for the 18 percent premium pay for the section’s Foreign Service officers, even though
most, if not all, of them work more than the 55 hours per week required to apply for that benefit.
Not all of ECOSOC’s excepted service staff members maintain records for their extra hours
worked even though they may be entitled to compensatory time. These records are also of value
in demonstrating a need for additional personnel resources.

        Employees in the sanctions unit of the political section also work significant amounts of
overtime, but that unit’s excepted service personnel do not qualify for the 18 percent differential
that Foreign Service officers in the rest of that section receive. Only recently have sanctions unit
personnel begun to document overtime hours worked because some of the unit’s employees are
entitled to some form of overtime compensation.

       Informal Recommendation 8: The U.S. Mission to the United Nations should establish
       and implement a policy that requires all personnel to document their overtime and
       provide employees with compensation when possible.

        The OIG team observed a link between the mission’s lack of control of overtime and
compensatory time and its lack of attention to time and attendance in general. Managers
routinely do not approve overtime in advance as required by Foreign Affairs Handbook
standards (4 FAH-3 H-523.2). Moreover, the mission has not reviewed its time and attendance
practices at an organizational level and does not have a time and attendance policy or uniform
timekeeping procedures. More consistent timekeeping would result in more control over the use
of overtime and compensatory time.

Recommendation 11: The U. S. Mission to the United Nations should standardize timekeeping
procedures across sections and require advance approval of overtime and compensatory time to
the extent possible. (Action: USUN)

Records Management

        Much of USUN’s work is based on precedent: what did the U.S. Government do or say
about this subject in preceding years? Many General Assembly resolutions are reintroduced year
after year, but subtle changes in drafts may have significant budget implications for the United
                                          18
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

States—the United Nations single largest donor—or imply an unintended policy shift.
Maintaining an accurate and easily retrievable historical record within the mission as a whole, as
well as within individual sections, is essential. Lack of attention over time to the record-keeping
function has resulted in the information storage problem, discussed in the next section, and
nonstandard record-keeping processes. Each officer at USUN has his or her own records
management system. Some officers rely heavily on paper records; others have developed
electronic archives that mean something to them but may not be searchable by their successors or
colleagues. For others, records management is done through storing vast quantities of emails that
exceed the system’s storage capacity.

       USUN has a research unit (discussed later in this report) dedicated to maintaining the
mission’s broad historical record. One of the research unit employees is the mission’s records
manager. That unit, however, has been striving for several years to modernize its record keeping
and digitize thousands of documents. There has been no time for the records management
coordinator to focus on missionwide records management issues.

        Because USUN has not developed a systematic approach to records management over the
years, the mission risks losing much of its historical record. There are individual officers with
exceptional information technology skills scattered throughout the mission, whose knowledge
could be tapped to develop a records management strategy.

       Informal Recommendation 9: The U.S. Mission to the United Nations should form a
       working group, led by the mission’s records manager and composed of staff with
       excellent records management practices and information technology skills. The working
       group should develop electronic and paper records management protocols in consultation
       with managers from each section and work with the records manager and the information
       resources staff to standardize record keeping.

Use of Record Emails

         The political, ECOSOC, and management and reform sections do a substantial amount of
reporting, both ad hoc and formal. Officers send either reporting emails or front channel cables,
generally using the cable format to report the formal conclusions of a Security Council session or
a major conference, board meeting, or committee event. Most reporting is done through
unclassified emails, however, and sent to an extensive list of addressees that varies according to
the issue. Throughout the year, officers prepare quick email reports of what transpired at
meetings and negotiations and seek guidance for the follow-on sessions. They also use emails to
report meeting dynamics, the positions of other delegations, assessments of the negotiation’s
status, and evolving resolution texts.

       Drafters usually send reporting emails with only the immediate supervisor’s clearance.
The informal nature of emails facilitates timely reporting and mitigates delays caused by formal
clearance and approval requirements for telegrams. Over-burdensome clearance requirements on
emails would defeat the purpose of using emails for informal reporting.




                                          19
                              SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED

        Currently, the mission sends very few reports by SMART 7 record emails. The rest are
sent as normal emails that, if kept at all, are archived only in the sender’s or the receiver’s
personal electronic folders. Consequently, little of the email reporting is available as a historical
record or as source material. Record emails are rarely used due to the absence of a mission policy
on how and when to use them.

Recommendation 12: The U.S. Mission to the United Nations should establish and disseminate
a mission policy on when and how to use SMART emails of record. (Action: USUN)

        In OIG questionnaires and interviews, customers expressed frustration with the lack of
storage capacity in the email system. Even though the information resource management section
installed a new local area network in August 2010 to increase the mission’s data storage
capacity, the new network did not provide the enhanced capacity that USUN needed. In the lead-
up to the inspection, the information management staff members had begun assessing customer
needs, increasing email box capacity, and working with customers one on one to inform them
about how they can manage their data files more efficiently. They had not yet had time, however,
to do a thorough assessment of customer needs. Until they complete such an assessment, it is
unclear how much additional storage USUN needs. The new level of individual attention has
increased customer satisfaction but is time intensive. USUN has an opportunity to develop a
customized network with increased storage capacity that will serve customers better.

Recommendation 13: The U.S. Mission to the United Nations should complete its surveys and
one-on-one customer training to determine customer business needs and assess storage
requirements. (Action: USUN)

Recommendation 14: The U.S. Mission to the United Nations, in coordination with the Bureau
of Information Resources Management, should plan an on-site visit from the bureau’s Global
Modernization Program designers to establish a network with greater storage capacity and
backup capability. (Action: USUN, in coordination with IRM)

Destruction or Retirement of Records

        At the time of the inspection, the research unit was in the process of reviewing masses of
paper materials forwarded by individuals or sections that were unsure of the proper disposition or
simply did not have the resources to cull those files themselves. At the time of the move from the
temporary premises to the new office building, one office destroyed 28 boxes of files that had
not been consulted for years. Some offices are still retaining files dating back to the 1950s for
reasons that have become unclear even to those who maintain them. According to 5 FAH-4 H-
212, offices are to examine their record-keeping procedures continuously to revise, consolidate,
or eliminate unnecessary records.

        The inspection team reviewed the files being retained by the host country section in
particular because paper file holdings were beginning to have space implications for that section.
In some cases, file holdings significantly exceeded the domestic records disposition schedule. In
other cases, there is no longer any need to retain paper files for records created and maintained

7
    State Messaging and Archive Retrieval Toolset.
                                                20
                                    SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

electronically or for those actions performed and archived by other agencies. Although the
recommendation that follows refers to the host country holdings, other mission sections could
benefit from a similar review. The Appendix contains a list of host country files requiring
review.

Recommendation 15: The U.S. Mission to the United Nations should review the need for paper
file retention in the host country relations section, propose updates to the records disposition
schedule to the Bureau of Administration for submission to the National Archives and Records
Administration, and retire or destroy relevant paper records accordingly. (Action: USUN)




                                         21
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Policy, Reporting, and Program Implementation
Crosscutting Issues

         During inspection preparations, the OIG team reviewed questionnaires from the USUN
staff in which many respondents described a stove-piped mission. The physical layout of the new
office building, with some offices divided between two floors, an inadequate number of
elevators, and restricted-access stairwells all complicate communication among sections.

         Recently, the mission took an important step toward identifying shared issues, reducing
stove piping, and developing a unified strategy on advancing management and reform goals at
the United Nations. While the inspectors were at USUN, the first permanent management and
reform Ambassador in 3 years initiated a task force drawing representatives from the political,
ECOSOC, and management and reform sections, as well as the executive office and the Military
Staff Committee, to seek areas where all can work together to advance a UN management and
reform agenda. In addition to developing a consolidated strategy, this nascent task force has the
additional advantage of breaking down any perceived divide between the mission’s political
appointees and the career staff, which, in turn, will enhance communication on other issues. This
effort has already created new enthusiasm among members of staff who now have a better
perspective on how their individual roles relate to the mission’s broader objectives.

        The OIG team counseled mission leadership on the usefulness of other initiatives to
reduce stove piping and create a better sense of community in such a busy, goal-oriented
mission. These initiatives could include conducting issue-specific town hall meetings, sending
officers to other sections’ staff meetings with a mandate to report back on priorities, holding
periodic deputy section chief meetings, and engaging in a variety of informal and spontaneous
team building activities.

Training

         Many of the officers in the political, ECOSOC, and management and reform sections
took over complex portfolios and began managing issues and negotiating without either
multilateral experience, a UN background, or one of the relevant Foreign Service Institute
courses. Some employees take Foreign Service Institute training after they have been on the job
for a year or more and the course information has already been gleaned through trial and error.
USUN does not offer in-house training in these skills except for a 1-day introduction for the
nonpermanent staff that supplements USUN during the UN General Assembly. The Foreign
Service Institute does not link USUN into its periodic multilateral or negotiating courses via
digital video conference. There is no sponsorship program that pairs inexperienced staff with
mentors. Several officers are responsible for countries or regions that they have never visited or
worked on before, particularly in Africa and the Middle East. These two regions account for the
majority of all Security Council work and much of the work in other UN bodies. There are a
variety of resources available to prepare officers for their USUN responsibilities, but the staff
does not take advantage of them due to the press of business and the paucity of money allotted
for training.


                                          22
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 16: The Bureau of Human Resources, in coordination with the U.S. Mission
to the United Nations, should include multilateral and negotiating skills training and Washington
consultations in the transfer orders of relevant Foreign Service officers who have not served in
multilateral assignments. (Action: DGHR, in coordination with USUN)

       Informal Recommendation 10: The U.S. Mission to the United Nations should make
       Washington consultations a part of the training continuum for relevant excepted service
       personnel during the initial 3 months of their employment.

Recommendation 17: The U.S. Mission to the United Nations, in coordination with the Foreign
Service Institute, should develop and implement a plan for training groups of new excepted
service and Foreign Service officers in New York. (Action: USUN, in coordination with FSI)

United Nations General Assembly

         The annual session of the UN General Assembly is the biggest event on the UN calendar.
The UN General Assembly meets in regular session every year from mid-September to early
December, with the first week devoted to presentations by heads of state. The six General
Assembly committees then meet separately to debate and negotiate numerous resolutions which,
when approved, are then discussed in plenary sessions of the General Assembly. Mission staff
monitors each committee’s negotiations, supplemented by two or three public delegates, area
advisers from each regional bureau, temporary duty reporting officers, and Washington-based
subject matter experts. Even with additional support, the mission is often hard pressed to cover
all of the simultaneously occurring events each fall.

        These essential workers require significant administrative support so that they can begin
work as soon as they arrive in New York. USUN appoints a member of its permanent staff to
coordinate the nonpermanent staff support and activities during the 3 months of the General
Assembly, but that coordinator changes every year or two. The reporting officers get a 1-day
familiarization course when they arrive in New York but no real guidance based on past
experience about what kinds of things warrant their attention in the marathon sessions and what
is the most valuable information for an end-of-day report. The lessons learned during the General
Assembly are not analyzed and collated into a document that helps the mission, and new
coordinators, prepare better for the following year’s meeting.

       Informal Recommendation 11: The U.S. Mission to the United Nations should conduct
       a lessons learned exercise each December, develop a coordinator and nonpermanent staff
       handbook, and update that handbook annually.

        Regional bureaus designate area advisers, usually former ambassadors, to interact with
permanent representatives and other delegates from countries in their region. Area advisers work
closely with officers in the political, ECOSOC, and management and reform sections to
understand U.S. objectives, problems with impending votes, and where they should focus their
lobbying efforts, and to develop talking points. Some advisers are more effective than others, and
some sections involve them better in strategy sessions. Mission officers cite the ability to
understand evolving negotiating positions, personal enthusiasm for the issues, persuasiveness,

                                         23
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

and broad recent experience in the region as some of the qualifications of a successful area
advisor.

        The goal of the area adviser program is to supplement mission efforts to achieve U.S.
objectives during the UN General Assembly. Mission staff observes the performance of the
various area advisers first hand, but USUN provides no feedback to the regional bureaus on their
effectiveness and whether they should continue to serve in that role.

       Informal Recommendation 12: The U.S. Mission to the United Nations should prepare a
       short performance review on each area adviser and submit the review to the bureau’s
       principal deputy assistant secretary.

Uncompensated Extraordinary Hours of Work

         Foreign Service and excepted service personnel in the political, ECOSOC, and
management and reform sections work long hours on extraordinarily complex, headline issues.
Employees in other parts of the mission are equally goal oriented and dedicated, but the burdens
fall particularly heavily on staff in those three sections. Employees in those sections are
remunerated under several different pay plans: the salaries of some officers are based on a 40-
hour work week, whereas others receive premium compensation based on a minimum of 55
hours a week; some officers get paid for overtime; other staff earn compensatory time but can
never use it due to the demands of their portfolios; and some employees work with no additional
compensation of any type based on their employment category and grade level.

         The nature of the work at USUN and its multiple employment categories mean that there
will never be parity in pay, work hours, or benefits among all the members of staff in any of
these sections. That disparity is a fact of USUN life. The rewards for these staff members come
with the work itself and the recognition that they get from the executive office or their
supervisors for jobs well done. During the 4-week inspection, the OIG team witnessed several
occasions where UN negotiations dragged on until 3:30 or even 5:30 in the morning. USUN staff
members were not only involved in discussions until the very end, but they were back at work an
hour before the official work day started to report on overnight developments and prepare for the
next round. One officer followed this routine 3 days in a row but never flagged. Like
professionals on Wall Street, some of the USUN staff members will burn out and move on to
jobs with more rational work hours after a few years, but many will stay, testing their stamina
year after year. Those whose business it is to monitor the use of U.S. Government resources may
not realize the benefits they derive from the unremunerated labor of the USUN policy and
negotiating staff. However, the mission would not have registered the recent successes it has
achieved in the multilateral arena or advanced American interests so well without it.

Political Affairs

       The political affairs section produces high-quality work and maintains generally good
morale despite long hours and the constant stress of nearly impossible deadlines. The section’s
primary focus is the UN Security Council, where decisions are legally binding and have
immediate effect on international peace and security. The Security Council meets nearly every
workday, and other related preparatory, negotiating, or consultative meetings take place
                                         24
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

constantly on the margins of Security Council sessions. The United Nations generally schedules
meetings of the Security Council no more than a few weeks in advance, and many meetings
occur with only 1 or 2 hours’ notice as world events dictate, making much of the section’s work
reactive and difficult to plan.

        The section covers all Security Council decisions concerning world crises or conflicts,
the establishment and modification of peacekeeping operations, the imposition of sanctions, and
arms control and nonproliferation issues. The staff provides political advice to the executive
office, coordinates policy with other UN missions and with Washington agencies, negotiates
resolutions, and reports to officials in the mission and Washington on results. The staff’s
portfolios are divided along both geographic and thematic issues.

        At the time of the inspection, a retired ambassador had been serving as the Alternative
Representative for several months, pending the arrival of a nominee awaiting Senate
confirmation. The Alternative Representative coordinates well with the Foreign Service section
chief but did not assert a management role himself. This approach was effective and provided
section leadership and management continuity during a period of transition.

        The section enjoys generally good relations with Washington officials, including IO and
USUN/W. The political section appreciates USUN/W’s clout in policy debates with regional
bureaus and other agencies. (b) (5)
                                                                             The section’s daily
staff meeting is crisp and effective. Several other mission sections attend the political section’s
staff meeting on a regular basis. The section chief also attends daily meetings with the executive
office and passes information quickly and appropriately to his staff.

        The political section chief is supported by two deputies and a unit chief for sanctions. All
the managers receive high marks from their subordinates for maintaining morale and providing
timely and regular information, guidance, and mentoring. Subordinates also credit the managers
with trying to achieve some work-life balance despite the long work hours. The section makes
good use of exchanges with other agencies; temporary duty staff; Franklin, Pickering, and
Presidential Management Fellows; and interns.

        The visibility and volume of work in the section’s sanctions unit has increased markedly
in recent years; sanctions have become a major U.S. and UN policy tool. Tough sanctions taken
against North Korea, Iran, and Libya in recent years have set new precedents. The sanctions unit
acts as a somewhat autonomous part of the political section, and the unit chief reports directly to
the section’s minister counselor. The designation of the sanctions unit chief as a third deputy
would recognize the importance of sanctions work, clarify the unit’s line of authority to the
section chief, and build morale in this overworked unit.

       Informal Recommendation 13: The U.S. Mission to the United Nations should designate
       the political section’s sanctions unit chief as the third deputy in the political section.

        There has not been an increase in sanctions unit staffing commensurate with the
increased workload. As a result, employees accrue considerable unpaid overtime. The sanctions
unit has several options for resolving its staffing shortage, including the reprogramming of a
                                          25
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

vacant secretarial position in the political section that some argue is no longer needed. (See the
Operational Effectiveness section for a discussion of reprogramming missionwide and for a
recommendation on documenting overtime.)

        As a general practice, following initial email reports sent immediately after Security
Council meetings, the political section fleshes out the emails with more thorough telegram
reports for the official record. These telegrams are often lengthy summaries of UN meetings that
are available elsewhere. The political affairs staff could focus its limited resources on essential
reporting and analysis if readers could link into UN transcripts and summaries whenever
possible.

       Informal Recommendation 14: The U.S. Mission to the United Nations should
       determine how the political section can reduce the length of reporting telegrams on open
       Security Council meetings by referring end users to available United Nations-produced
       materials and supplementing them as needed.

Military Staff Committee

        The mission hosts a small office known as the Military Staff Committee. That office
represents the Joint Chiefs of Staff on the UN Military Staff Committee and provides military
advice to the Permanent Representative and mission staff. A U.S. Army colonel heads the office.
He has established a close, collaborative relationship with the Permanent Representative and
participates in her morning conference call. Military Staff Committee officers work closely with
the political section on peacekeeping issues, and they regularly participate in other sections’
meetings, as well as working groups, on subjects with peacekeeping or humanitarian response
components.

Economic and Social Affairs

        Over the past 24 months the ECOSOC section has been especially successful at
promoting U.S. policy interests at the United Nations. Through active lobbying and negotiation
in both the General Assembly and relevant committees, the ECOSOC staff has increased vote
margins on resolutions substantially beyond what they had been in previous years and has
achieved important U.S. political objectives related to Iran and Libya. Despite long work hours
and chronic understaffing, the section’s effective leadership and the staff’s commitment to
getting the job done well has paid off with high morale and a real sense of accomplishment.

        The ECOSOC section’s workload has increased significantly in recent years. UN bodies
such as the General Assembly and the ECOSOC Council have sought to enliven their agendas by
using new mechanisms such as thematic debates, high-level meetings, summits, and
commemorative meetings. The number of such meetings increased from 6 in 2007 to 15 in 2010.
Preparations for these events require intensive negotiations on documents and statements and tap
already scarce personnel resources. In addition, the United Nations and its members created a
number of new institutions, including UN Women and the Peacebuilding Commission, which
require monitoring and active participation as they develop their programs. Human rights and
some special initiatives related to sexual violence in armed conflict, rights involving sexual
orientation and gender identity, and other social issues have taken on new prominence, again
                                          26
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

requiring additional strategy sessions and consultations on policy with interested Washington
agencies and other delegations and UN staff. Sustainable development and environmental issues
resolutions doubled from 12 to 24 in the last General Assembly session.

       Keeping up with the normal work required by 14 UN specialized agencies, 10 functional
commissions, 5 regional commissions, and 11 UN funds and programs, plus the new initiatives,
keeps the section staff extremely busy. Most staff members routinely work more than 55 hours a
week. (See the Operational Effectiveness section for a recommendation on documenting
overtime.)

        Communications within the section are good. The section chief chairs a short staff
meeting each morning to pass on information from the executive office morning meetings, to
receive updates from section officers, and to coordinate the day’s program. Once each week, the
Ambassador to ECOSOC chairs the morning meeting. Section planning normally focuses on the
immediate except for some strategic planning in advance of the annual General Assembly and
ECOSOC Council. Not long after his arrival, the ECOSOC Ambassador and a front office policy
adviser developed a 2010 ECOSOC section planning document. Changes in the section’s work
and focus made that plan less useful than the authors envisioned. The section intends, however,
to do more forward planning and review of its longer term objectives.

        Most reporting is done by email to a tailored list of addressees. These reports are timely
and, according to Washington recipients, provide all necessary information. The section sends
formal reporting cables less frequently, usually to report the outcomes of more important
meetings. The section does not have a policy on the use of SMART emails of record and only
occasionally are they used. (See Recommendation 12 on establishing a mission policy on emails
of record.)

        The Ambassador to ECOSOC and the section chief have worked out a division of labor
where the Ambassador concentrates his efforts on the new Peacebuilding Commission,
humanitarian issues, and UN organizations headquartered in New York such as the UN
Children’s Fund and UN Development Programme. The section chief and his deputy provide
frequent briefings, guidance, and counsel to their staff, and the section chief is very effective in
policy and strategy development. The deputy takes the lead on editing and clearing documents
and in the day-to-day aspects of managing the section. She sometimes assists colleagues in
lobbying other delegations during critical votes.

        Despite the tremendous increase in the section’s workload, staffing has remained
stagnant. The mission requested two additional positions for the ECOSOC section in the past two
Mission Strategic and Resource Plans: one for health and social issues and the other for
sustainable development and environmental issues. With additional personnel, portfolios in the
section could be adjusted to reduce every officer’s workload. The OIG team supports the
mission’s request for two additional positions. These new positions would put an additional
burden on the deputy, who is already reaching the limit of span of control in supervising more
than 10 action officers and support staff, plus a varying number of interns and fellows.




                                           27
                               SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 15: The U.S. Mission to the United Nations should consider
       creating a second deputy position in the economic and social affairs section whenever the
       section has a new position.

        The breadth of issues that ECOSOC officers deal with requires them to interact with
Washington representatives from numerous agencies. Their primary interlocutors, however, are
in IO. The intricate preparations for the annual UN General Assembly are also mainly with IO.
IO prepares position papers and guidance for hundreds of resolutions that will be debated in the
various committees. In previous years, some ECOSOC section staff traveled to Washington to
consult with IO and help prepare for the General Assembly. Recently, the practice of
consultation travel has fallen off. The section’s deputy and IO office deputies make weekly
telephone calls to establish priorities, exchange information, and resolve communication
problems. These calls have strengthened relations between the ECOSOC section and the relevant
IO offices. The OIG team encouraged the ECOSOC section to continue this type of consultation
in order to maintain strong professional relationships and minimize potential misunderstandings.

Management and Reform

        The relatively small management and reform section promotes U.S. objectives of
strengthening the UN’s management and maintaining discipline over its multibillion dollar
budget, of which the United States pays a substantial portion. In pursuing these goals, the
management and reform staff represents the United States in various UN oversight and budget-
oriented committees. With an unprecedented number of peacekeeping missions, two war crimes
tribunals, the UN Capital Master Plan to renovate the UN headquarters complex, and oversight
of the regular budget and the budgets of other UN-mandated activities, the management and
reform staff is barely able to keep pace. As mentioned earlier, at the time of the inspection the
section’s new Ambassador initiated a task force to coordinate the mission’s approach to the UN
management and reform agenda across section lines, which will add significantly to the section’s
workload. This tightly staffed section is punching way above its weight thanks to a mix of
talented employees, each handling a wide range of responsibilities, and it is planning for ways to
increase capacity without increasing its permanent staff.
       (b) (5)




                                         28
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 16: (b) (5)



        Communication in the management and reform section is good. The section meets
weekly, and more often if needed, to coordinate negotiation strategies. The new section chief
was hired from the United Nations only a few months before the inspection began, and he was
able to adapt quickly to USUN’s rhythm. He has formed a close partnership with the newly
arrived Ambassador for management and reform, which results in a productive joint
management arrangement. The section was preparing to address a staffing crisis as the inspection
concluded, with three staff members retiring before the end of 2011, one rotating into the
advisory committee position, another taking extended leave, and a Foreign Service officer
curtailing. Section management had already considered options for replacing departing staff,
including reprogramming a support position and requesting additional nonpermanent staff until
they can rebuild the permanent staff. The section’s experience with UN management issues
seems to have positioned it well to overcome its own management challenges.

Legal Affairs

       The legal section provides advice to all five of the USUN ambassadors and the entire
USUN staff on a wide range of procedural and substantive issues relating to the United Nations.
The section’s attorneys also represent the United States on several General Assembly
committees, on the Security Council’s documentation and procedures working group, on the
governing bodies of several criminal tribunals, and on a working group on the International
Criminal Court. They assist in drafting and negotiating resolutions for the political, ECOSOC,
and management and reform sections and provide ethics advice to all USUN staff.

         USUN staff members across the board commented positively on the support and advice
that the legal affairs section provided them. In acknowledgement of the vital role that the legal
affairs section plays in all mission issues, the head of the section participates in both the
Permanent Representative’s early morning call with IO and the NSC and the follow-on senior
staff meeting, as well as the daily evening wrap-up call.

          At the time of the inspection, only one of the three attorney positions was encumbered
full time due to a complex hiring chain that involved promoting one before others could be hired
to fill the two remaining positions. The office hoped to be back to full strength by the beginning
of the 2011 UN General Assembly. During the UN General Assembly, and on other specific
issues throughout the year, personnel from the Office of the Legal Adviser provide much-needed
assistance from Washington to the small legal affairs staff. The section could make good use of a
Franklin or Presidential Management Fellow with a legal background to supplement the attorney
staff once there is a full complement of attorneys and someone has the time to mentor a
temporary staff member.

        The chief of the legal section acknowledged that the attorneys have little time to manage
their email boxes and their record keeping in general and that the section’s secretary does not
have the legal background to organize materials for the attorneys without close oversight. The

                                          29
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

OIG team discussed the advisability of seeking a secretary with some legal background
whenever there is a vacancy in that position.

Press and Public Affairs

        In an administration that has placed renewed emphasis on multilateral diplomacy, the
press and public affairs section successfully communicates U.S. policy positions to domestic and
foreign audiences to accomplish policy goals. The section has used social media effectively,
especially Twitter, to push out messages on the most pressing topics of the day. The Permanent
Representative values the work of the section in supporting her as she carries out her duties as an
NSC principal and in serving as an effective adjunct to the press operations of the Department
and NSC—her highest priorities for the section.

        The director of communications has both operational responsibilities as mission
spokesman and managerial responsibilities as head of the section. With an energetic Permanent
Representative who is a key communicator of policy messages, the director has focused most of
his attention on press-related activities, taking an active role in coordinating with Washington,
approving all messages, and speaking to journalists. The deputy has primary responsibility for
administrative matters and oversight of public diplomacy outreach activities. This division of
duties makes sense in principle, but the deputy’s work requirements do not enumerate clearly the
management responsibilities of the position, such as budget and personnel, or articulate the
deputy’s decision-making authority on those issues. Delegating more explicitly to the deputy the
power to handle matters within the position’s scope would lead to both greater efficiency and
accountability. The OIG team counseled the director and deputy to hold frequent, even daily,
meetings to keep the director apprised of management decisions made by the deputy and
preserve the director’s ability to exercise ultimate oversight.

Recommendation 18: The U.S. Mission to the United Nations should revise the work
requirements of the deputy director of communications to specify the position’s management
responsibilities and commensurate decision-making authority. (Action: USUN)

        Officers assigned to the deputy director position do not routinely receive appropriate
training to prepare them to be responsible and accountable for management functions. Portions
of the Foreign Service Institute course for public affairs section chiefs address management
duties similar to those required at USUN.

       Informal Recommendation 17: The U.S. Mission to the United Nations should require
       public affairs section chief training for the deputy director of communications position.

        This is a busy office with a wide variety of functions. Staff members perceive an “inner
circle” of those working most closely on daily press issues and an “outer circle” of those working
on other tasks. The brief daily morning meetings center on immediate press issues, and the wider
ranging weekly staff meetings are sometimes cancelled or postponed due to events and schedule
conflicts. The OIG team counseled the section managers about building a greater sense of unity
through holding meetings more regularly and organizing more informal activities for team
building and cross-fertilization of ideas.

                                          30
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Press and Social Media

        The Permanent Representative is a key spokesperson for administration policy, and the
press and public affairs section works long hours developing, recording, transcribing, and
disseminating public statements; answering journalist inquiries; shepherding interviews; clearing
press guidance; and monitoring the news. The section closely coordinates messages and strategy
with the Department’s Bureau of Public Affairs, NSC, Department of Defense, U.S. Agency for
International Development, and other communicators primarily through a morning conference
call. Participation in this call works well in keeping USUN closely aligned on policy messages.
However, the IO press office does not participate in the NSC-led call for agency communicators
and so is sometimes unaware of upcoming USUN press events and major interviews, although
coordination is closer on press inquiries and guidance. Consequently, IO may not have the
opportunity to flag issues of concern or offer assistance.

       Informal Recommendation 18: The U.S. Mission to the United Nations should establish
       a channel to inform the Bureau of International Organization Affairs press office
       leadership of upcoming press activities.

        Although the New York mission is the flagship USUN mission, there are six other U.S.
missions to UN agencies worldwide. Interaction among the missions is mainly through IO,
which has the primary facilitating role. Because the overseas missions also deal with UN issues,
often on short deadlines, the public diplomacy officers there would benefit from receiving USUN
New York press releases and statements directly upon release, rather than through Washington.
These officers used to be on the mailing list, but USUN New York has not updated its list of
current public diplomacy officers at overseas USUN missions recently. The OIG team advised
them to do so; they agreed.

         The press and public affairs section devotes considerable attention and resources to
engaging people on social media—especially Twitter. The director set the ambitious target of
reaching 50,000 Twitter followers for @AmbassadorRice; thanks to the staff’s efforts and rising
interest in international issues during the Arab Spring and Sudan election, the number of
followers exceeded 50,000 by the end of the inspection, and journalists were quoting from the
Permanent Representative’s Tweets in news stories. Growth on the Facebook site was slower but
still respectable, reaching 4,800 by June 2011. Facebook users may post on the site’s wall, and
many do, but the section does not normally respond to individual postings.

         Both of these sites are keyed to the name of the current Permanent Representative, which
raises the question of what will happen to USUN’s social media outreach when she leaves this
position. The section recognized this problem and began a USUN institutional Twitter feed that
had grown to 2,700 followers by June 2011; however, the USUN Web site does not provide a
direct link to the USUN Twitter feed, only to the @AmbassadorRice feed. At the time of the
inspection, the section was preparing to launch a USUN institutional Facebook page. Building an
audience for the institutional social media presence will be crucial for continuity.

       Informal Recommendation 19: The U.S. Mission to the United Nations should put links
       to its institutional social media sites on the mission Web site and continue efforts to
       develop a strong institutional Facebook site.
                                         31
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

        USUN designed and inaugurated a new mission Web site in 2009. The site does not
follow the standard format the Department established for consistency, but it is an improvement
over USUN’s previous Web site, and the number of unique visitors has doubled over the past
year. The section is good about updating it frequently. As a domestic site, it properly does not
link to electronic information developed by the Department specifically for foreign audiences,
but it could be taking better advantage of information available on the Department’s main
www.state.gov Web site. For example, both the USUN and the Department Web sites feature
pages on global issues, and the USUN site could benefit by linking to these and other relevant
parts of the Department site. In addition, USUN could link to Department-produced translations
of key speeches as a service to its growing foreign audience, which reached 42 percent of site
visitors in April 2011.

       Informal Recommendation 20: The U.S. Mission to the United Nations should include
       on its Web site relevant links to information on the Department of State’s main Web site.

Public Diplomacy and Outreach

        Although the primary focus of the section is press relations and public messaging, the UN
location in New York provides the opportunity for public diplomacy outreach to the
representatives of 191 UN members. The section conducts panel discussions on policy issues for
the UN community, such as panels on disaster relief and urban greening in America. It sponsored
a worldwide youth event soliciting young people’s advice for the Security Council. It also
arranges large numbers of briefings for visiting groups (primarily American) and meetings
between USUN officers and nongovernmental organizations, with whom section staff have
extensive contacts. However, it could more actively integrate these longer term public diplomacy
tools into its overall policy advocacy. Most of the public diplomacy and public affairs activity
responds to requests or proposals from outside the section. Planning is sporadic and ad hoc, with
no overall strategy. The two-person public diplomacy unit operates largely autonomously and is
not integrated fully into the section’s work. The USUN mission received approximately $49,000
in public diplomacy funding in FY 2011 but has no general budget plan to spur initiatives that
promote U.S. policy goals.

Recommendation 19: The U.S. Mission to the United Nations should develop an annual public
diplomacy implementation plan that establishes quarterly schedules for panels, briefings,
speeches, electronic outreach, and other public diplomacy activities to promote the mission’s key
priorities. (Action: USUN)

Recommendation 20: The U.S. Mission to the United Nations should establish a draft budget
for public affairs activities at the beginning of each fiscal year. (Action: USUN)

         Press and public affairs section staff attend the political and ECOSOC section meetings,
and officers from these sections have worked together with the public affairs section on outreach
activities. Although the press and public affairs section’s advance calendar of activities is not
available to other mission sections, public diplomacy events are shared with the entire mission
via email notices. Other sections do not always appreciate how the press and public affairs
section’s activities could support their priorities. Public diplomacy staff could harness
missionwide cooperation in a more systematic way by convening issue-oriented brainstorming
                                         32
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

sessions to develop input for the public diplomacy plan mentioned earlier, and the OIG team
encouraged them to do so.

       Informal Recommendation 21: The U.S. Mission to the United Nations should display
       the press and public affairs section’s calendar of activities on SharePoint.

        The section does not keep detailed, centralized records of its public diplomacy activities;
such record keeping would be helpful to political appointee and Foreign Service staff who rotate
regularly. The section had not made any entries in the Mission Activity Tracker since March
2009; Department telegram 07 State 00123741 requires missions to record their public
diplomacy activities aimed at foreign audiences in the tracker.

Recommendation 21: The U.S. Mission to the United Nations should enter its most important
public diplomacy activities aimed at foreign audiences in the Mission Activity Tracker. (Action:
USUN)

Administrative Issues

         The press and public affairs section has taken on new initiatives, such as social media,
and enhanced some of its other activities without increasing its permanent staff. Instead, it relies
heavily on interns, fellows, and contractors to keep up with the constant stream of basic tasks,
such as correspondence, press clips, transcripts, and media monitoring. Section management has
not included the two secretaries in many of these activities. Although reliance on nonpermanent
staff can work when there is an entire team of extra hands on board, the full-time staff is hard
pressed to keep up with required tasks when interns and fellows rotate out and new ones have to
be trained or when people are on leave. The section has suffered from staff burnout because of
the heavy demands. Dependence on contractors for routine duties also cuts directly into the
amount of money available for public diplomacy outreach. The section has inherited tasks and
activities over time; these activities may once have been linked to USUN’s priorities, but they
may be less important now. The OIG team counseled staff members to examine whether they
could reduce the time spent on lower priority activities that do not contribute directly to current
mission goals. The section’s two secretaries could take on additional tasks to even out the burden
of routine work.

       Informal Recommendation 22: The U.S. Mission to the United Nations should make
       better use of its entire public affairs staff by giving the section’s secretaries a greater role
       in producing transcripts, responding to routine mail, and performing other tasks.

         The press and public affairs section produces a daily compilation of press clips that is
about 85 to 100 pages long. However, there is a cost to produce the daily press clips in terms of
staff time. Production involves a section employee, one or more interns and fellows, and a
contractor. Producing it takes approximately 6 hours, including time spent the evening before, in
the morning starting at 4:00 a.m., and every weekend. The staff checks a wide variety of news
Web sites, columnists, correspondents, blogs, and the State Department News Clips for general
domestic and world news and for items that mention the United Nations, USUN priorities, or the
Permanent Representative. They put together a news clips email using their own formatting, with
abbreviated and full-text sections and external and internal hyperlinks. Although it is an
                                          33
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

impressive product, much of this work duplicates the effort that goes into the State Department
News Clips, which are available daily at 5:30 a.m. on the Department’s internal Web site. The
package has grown so large that many USUN officers say they do not have time to look at it all.

Recommendation 22: The U.S. Mission to the United Nations should reduce the amount of staff
time spent on press clips. (Action: USUN)

        The press and public affairs section is responsible for handling all correspondence from
organizations and individuals addressed to the Permanent Representative or the mission in
general. The 1998 and 2003 OIG inspection reports noted that the single full-time
correspondence position could not adequately handle the load and recommended that the section
add more staff for correspondence duties. Because of the reprogramming of positions, the section
no longer has even a single staff member devoted full time to correspondence; a staff member
and an intern handle it, along with their other duties. The section forwards high-level mail to the
executive office and assesses and makes recommendations on invitations, but the section does
not respond to or even acknowledge letter mail about issues before the United Nations.
Meanwhile, it does log, track, and analyze for trends every piece of incoming mail, including
pamphlets, newspapers, and solicitations. The section has not established rules on how to deal
with non-issue-oriented mail and has not adopted a set of templates for acknowledging receipt of
letter mail.

       Informal Recommendation 23: The U.S. Mission to the United Nations should establish
       and implement a policy on acknowledging and responding to incoming letter mail and
       look for other ways to streamline the process, such as sending all invitations directly to
       the executive office for handling.

        Although the volume of written mail has significantly decreased in recent years, the
volume of email has greatly increased. Staff members categorize emails by subject and tabulate
them but do not send personalized responses, although email correspondents do receive an
automated response referring them to USUN Internet sites. All of the messages that arrive via the
Web site have the same subject line (“Contact us”) because the section has not updated this part
of the site due to cost constraints. As a result, staff members must open each message and cannot
quickly weed out junk email.

       Informal Recommendation 24: The U.S. Mission to the United Nations should make
       updating the “Contact us” function on the mission Web site a high priority when the
       budget allows and should limit the email tabulation process to major categories.

Host Country Relations

        In 1945, when the United States became host to the fledgling United Nations, the U.S.
Government signed a number of treaties and multilateral conventions from which flow a series of
obligations to the United Nations itself and to the UN diplomatic community in New York. The
host country relations section ensures that Federal, State, and local governments, as well as the
United Nations and member foreign missions, fulfill all their respective treaty obligations. The
section has a problem-solving focus and is on call 24 hours a day. Failure to act promptly in
response to diplomatic incidents or on visa and accreditation requests can (b) (5)
                                          34
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

(b) (5)



        The compact and customer-oriented host country section provides accreditation and visa
renewal or change of status services for foreign diplomats, nondiplomatic personnel associated
with foreign missions, and UN staff; forwards and tracks applications to the Department of
Homeland Security for work authorization; and serves as a liaison between other diplomatic
missions and police and civilian entities on a range of issues from parking tickets and leases to
arrests and travel arrangements.

        The success of a small operation handling a variety of responsibilities depends on cross-
training and a seamless backup system so that no one employee’s absence causes a breakdown in
service. Not all host country staff members are adequately cross-trained. In accreditation, in
particular, three staff members perform components of the accreditation function, but their
positions span five grade levels, resulting in an inequitable division of labor and a loss of backup
potential. The more junior accreditation staff lacks experience in handling high-profile,
complicated cases. One accreditation team member is relegated to data entry because that
position was not reclassified when it was converted from a clerical position. This situation results
in a loss of productivity and flexibility for the accreditation unit as a whole.

Recommendation 23: The U.S. Mission to the United Nations, in coordination with the Bureau
of Human Resources, should update and reclassify the three accreditation position descriptions
so that the incumbents of all three positions are fully cross-trained and share appropriate portions
of the workload. (Action: USUN, in coordination with DGHR)

        The senior accreditation staff member coordinates the unit’s work but does not have
rating responsibility for the two other accreditation staff. She is the person with intimate
knowledge of their performance and responsibility for their training. At present, the section’s
deputy prepares the performance appraisals for all three accreditation staff members after
consulting with the senior staff member. This anomaly results in additional work for the
section’s deputy at appraisal time, but it also limits the senior accreditation staff member’s
authority.

          Informal Recommendation 25: The U.S. Mission to the United Nations should make the
          senior accreditation staff member the supervisor and rating officer for the rest of the
          accreditation staff.
          (b) (5)




Recommendation 24: (b) (5)




                                           35
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        On occasion, employees detect fraud and misrepresentation in the visa renewal,
accreditation, and work authorization processes. They were unaware, however, of the value of
reporting the fraud that they detect and prevent to the Bureau of Consular Affairs’ Office of
Fraud Prevention Programs. Overseas fraud prevention managers are required to report on fraud
trends semiannually. Although the incidence of fraud is far lower at USUN than at overseas
missions, USUN’s reports would provide useful input to fraud prevention officers in embassies
in the diplomats’ countries of origin.

       Informal Recommendation 26: The U.S. Mission to the United Nations should
       consolidate all the host country cases involving potential or confirmed fraud into an
       annual report to the Bureau of Consular Affairs.
       (b) (5)




Recommendation 25: (b) (5)




        One full-time host country relations employee coordinates the airport courtesies, aircraft
overflight clearance, and travel restriction programs and serves as a liaison between diplomatic
missions and law enforcement whenever diplomats or their families are detained by U.S. law
enforcement. Especially during major UN events like the General Assembly, these
responsibilities involve a substantial amount of after-hours engagement with foreign missions
and law enforcement entities.

         When the host country section receives an inquiry or a complaint via diplomatic note, the
staff passes any law enforcement questions to the appropriate action office outside the mission.
Occasionally, however, the investigating entity does not inform host country relations of the
outcome, and the mission is unable to respond to the inquiring foreign mission by return
diplomatic note. To complicate matters, several Department entities and various New York
metropolitan area law enforcement agencies have overlapping responsibilities with regard to
foreign missions, their staffs, and facilities. There is no memorandum of agreement to provide
guidance on the division of responsibility or a regular meeting schedule to discuss impending
events or critique completed events.

       Informal Recommendation 27: The U.S. Mission to the United Nations should develop
       a memorandum of agreement between host country relations and the New York
       diplomatic security field office that clearly outlines the responsibilities of each for
                                          36
                              SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED

support to foreign diplomats and facilities assigned to the United Nations and that
establishes regular multiagency information-sharing sessions.




                                  37
                      SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


Resource Management
                       Agency                                              Total Funding
                                                                             FY 2010

    State – Diplomatic and Consular Programs                                                     $4,588,7618
    State – Public Diplomacy                                                                        $122,500
    State – Diplomatic Security                                                                            0
    Military Staff Committee                                                                             NA
    U.S. Agency for International Development                                                            NA
    Representation                                                                                  $200,849
    Totals                                                                                        $4,912,110

Overall Management

        USUN’s management operation is akin to that in an overseas mission, providing the full
range of management support, backed by the IO executive directorate in Washington. The
section runs well, with an experienced and skilled management counselor and strong leaders in
each functional unit, although some of the larger operational effectiveness issues noted earlier
also affect this section. The major management challenge of the past year was the move from
interim space into the new office building, a process that, in many ways, is ongoing. The move
occurred before the building was fully ready for occupancy, a decision made to avoid both the
high cost of extending the interim contract and the start of the UN General Assembly, the largest
“all-hands-on-deck” event on the UN calendar. The early move provided many challenges for the
general services and information technology staff, in particular; some of those continue as a few
final construction items remain unfinished, including some computer cabling.

        With so many of the management resources devoted to the move, other management
issues slid lower on the priority list. It is time for the mission to turn its attention to the most
pressing of these. The OIG team identified training needs in almost all sections of USUN, and
there are several specific training recommendations throughout this report. Historical budget
information suggests that training has been a low priority for many years. The lack of training to
update skills is particularly important in areas of rapid change, such as information technology,
yet few resources have been identified for that effort, and productivity suffers as a result. Current
managers in the information resource management and the human resources units have made
training a priority for their newest staff members and found ways to make it happen at a low cost
to the mission. Despite this commendable start, USUN managers have not made the preparation
of short- and long-term training plans a part of their management strategy. USUN can enlist the
help of the Foreign Service Institute and the Regional Support Center in Frankfurt to find the
most cost-effective ways of achieving training goals.



8
  The base budget for FY 2010 was $3,621,700. The final budget number includes supplemental funding for travel,
contract cost for a temporary employee, expenses in connection with the move to the new office building, and other
unfinanced requirements.

                                              38
                                  SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 26: The U.S. Mission to the United Nations should require mission managers
to work with the human resources unit to prepare a specific and prioritized training plan for
employees in their section. (Action: USUN)

Recommendation 27: The U.S. Mission to the United Nations, in coordination with the Foreign
Service Institute and the Bureau of International Organization Affairs, should identify resources
available to provide priority training in the most cost-effective manner. (Action: USUN, in
coordination with FSI and IO)

         There are several employees at USUN who are eligible for, and considering, retirement.
The Office of Personnel Management holds a 1-day retirement course for Civil Service
personnel in New York. The mission’s current practice is to fund this course for USUN’s
excepted service personnel at a much lower cost than funding per diem and travel to the
Department’s 4-day retirement course. These employees do not, however, receive the benefit of
all the information contained in the longer course.

Recommendation 28: The Foreign Service Institute, in coordination with the U.S. Mission to
the United Nations, should offer all or part of the retirement seminar course via digital video
conference to U.S. Mission to the United Nations staff. (Action: FSI, in coordination with
USUN)

         The OIG team reviewed budget data confirming that USUN’s base budget has declined in
both real and inflationary terms since FY 2001. The numbers reflect a 2001 base of $4.1 million
and a base budget in 2011 of $3.9 million. Adjusted for inflation, the decline is even steeper.
Each year the mission is only able to sustain this low level of funding with an infusion of
supplemental funds specified for one-time expenses such as the 2010 and 2011 move-related
expenses, and supplemental funding each year for items such as information technology
upgrades, special conferences, and travel. Each year the final budget, after the supplemental
funds are added, is generally from $400,000 to more than $1 million higher than the base. Very
little of USUN’s base funding is discretionary; most is obligated as soon as it arrives, leaving the
mission little left over for important training, unexpected travel of personnel apart from the
executive office, or even routine procurement. Over many years, the mission has done little
advance planning. As noted above, USUN lacks short- and long-term training plans. The mission
also has no travel plan. Although unanticipated travel requirements are the norm, the mission has
travel history that it could use to budget annual travel. The procurement plan maintained in the
general services office is not prioritized. Even in these times of declining budgets, better
planning could help justify a needed increase in USUN’s base budget or at least prevent further
slippage.

Recommendation 29: The U. S. Mission to the United Nations should justify an increase in the
base budget after undertaking a financial planning exercise that includes a training plan with
courses and costs identified, an estimated travel budget based on the previous year’s travel and
any known travel requirements, and a prioritized procurement plan. (Action: USUN)

       Despite tight budgets, USUN has a small awards program. Some members have been on
the awards committee for many years and, at the time of inspection, two members were from the
same mission section. The mission would benefit from more rotation of awards committee
                                          39
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

members, including the chairman. The OIG team’s review of recent award recipients showed
that a number of senior officers had received awards, rather than writing them for their
subordinates. The OIG team suggested that the mission strive for a better balance between
awards for junior and senior members of the USUN team.

       Informal Recommendation 28: The U.S. Mission to the United Nations should revise
       the mission awards program, rotating awards committee chairmanship and membership
       among employees and sections, and balancing awards between junior and senior staff.

Financial Management

        The financial management team is strong, as is its working relationship with the IO
executive director’s office. A Civil Service financial management officer leads the small team
that includes a budget analyst and a voucher examiner. The mission’s regard for the financial
management unit is reflected in high scores in the OIG’s workplace and quality-of-life
questionnaires. The unit closely monitors accounts and is effective in tracking allocations and
managing obligations for the mission’s program and representation allotments, totaling
approximately $4.6 million.

        The financial management office has taken the lead in exploring ways to fund new office
building operating expenses outside the program budget. It has engaged with the regional bureau
executive director’s office to evaluate a shared-services-type plan to allocate and share rent and
certain utility costs of approximately $12.7 million per year with three non-USUN Department
tenants. The plan is evolving and follows the Department’s model for allocating costs to overseas
posts. At the time of the inspection, the mission had determined the square feet occupied by
various tenant agencies and generated sample invoices.

        Despite its success, the section could operate more effectively by expanding the duties
and developing the knowledge base for both the budget analyst and the voucher examiner. At
present, staff functions are limited to achieve desirable separation of duties. For example,
subordinate staff is prohibited from certifying vouchers. When the financial management officer
(certifying officer) is on leave, payments become backlogged. Finding a solution to expand the
duties of the budget analyst will reduce the risk of unpaid bills.

       Informal Recommendation 29: The U.S. Mission to the United Nations should
       implement a cross-training plan that provides each financial management office
       employee with additional skills and backup responsibilities.

        In addition, the financial management unit lacks written standard operating procedures
for regular office functions. Preparation of standard operating procedures will assist the cross-
training effort and capture the knowledge of those working in the unit.

       Informal Recommendation 30: The U.S. Mission to the United Nations should
       document standard operating procedures for the financial management section.




                                          40
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Human Resources

        USUN made a wise decision in 2009 to create and fill a new human resources officer
position. In a short time the incumbent has made changes that are felt and praised throughout the
mission. Other new hires in the human resources unit have also made a positive difference in
service delivery. The section has focused on training new personnel and realigning tasks to better
suit employee skill sets. The unit continues, however, to struggle with customer complaints,
some of which have merit.

        The perception of poor customer service is, in part, due to the lack of cross-training and
information sharing within the human resources office. Each employee in the office has a
specific set of duties and responsibilities; in most cases only one employee is trained to handle a
particular task or program. None has a designated backup. As a result, employees are often
unable to answer customer service inquiries if they do not fall in their direct area of
responsibility. In addition, some personnel are not fully up to date on issues for which they have
responsibility. Not all human resources employees have received basic training on key programs
that require significant customer assistance such as ePerformance. The section has a shared
computer drive, but because it is not well organized, few use it to store work documents,
preferring instead to keep them in private folders. This method allows other employees in the
office no immediate access to documents created by an absent team member. Customers express
frustration at receiving incorrect information from unit employees; in some cases they reach out
to Department human resources contacts to answer their questions.

Recommendation 30: The U.S. Mission to the United Nations should identify and schedule
formal and informal training for each human resources unit employee to provide each with
expertise in her own area of responsibility and basic knowledge of other human resources
policies and programs. (Action: USUN)

       Informal Recommendation 31: The U.S. Mission to the United Nations should designate
       backups for each human resources position, providing on-the-job training to the backup
       personnel on each new duty.

       Informal Recommendation 32: The U.S. Mission to the United Nations should
       reorganize the human resources shared electronic filing system, prohibiting the use of
       private folders for completed business documents, deleting or archiving old documents,
       and establishing clear subject folders to store current documents.

       The human resources unit lacks written standard operating procedures for common
human resources functions. An online folder containing procedures for common tasks would
provide a ready reference for all in the section, allowing any member of the unit to research
answers to typical customer inquiries and assisting backups to perform the duties of an absent
employee.

       Informal Recommendation 33: The U.S. Mission to the United Nations should develop
       written standard operating procedures for common human resources tasks.


                                          41
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

General Services

         The general services unit is an effective operation, having made great strides since the
last inspection, when it was reported to be inefficient and unresponsive. Good leadership and the
staff’s response to it appear to account for this change. The unit’s responsibilities include the
housing program, property management, procurement, and motor pool. The unit received the
management section’s highest ratings in the OIG’s workplace and quality-of-life questionnaires.
The section is well managed, and collaboration with the regional bureau executive director’s
office is good, but personal property internal controls need strengthening. The nimble unit serves
over 150 mission personnel. Each employee has multiple, often unrelated responsibilities. The
unit shouldered much of the responsibility in planning and executing the mission’s 2010 move to
the new office building.

        Housing has been a long-standing topic of interest in the mission. Approximately half of
the diplomatic and consular program budget is spent on housing costs. Most, but not all,
personnel transferred to New York from Washington or overseas participate in a housing
program that permits them to rent accommodations within a half hour of the office building. The
mission pays the rent for these employees, but the subsidy is added to the employee’s earnings
for tax purposes. The ensuing tax liability (Federal, State, and city) diminishes this housing
benefit, making it less attractive for some to serve at USUN. However, despite being taxed on
the benefit, most participants expressed satisfaction with the mission’s housing program.

        The housing program is being administered fairly and is considered to be a positive
aspect of this tour of duty. The mission is authorized subsidized housing for 30 Foreign Service
positions, 5 U.S. representatives to the United Nations, and 2 others to help offset the high costs
of housing in New York City. Participation has remained constant since the last inspection
report. The housing benefit is congressionally authorized and designed to enable USUN to attract
highly qualified officers despite the high cost of living in New York City. Currently, all of the
mission’s Foreign Service officers who choose to take advantage of the housing program can do
so; however, the mission has been unable to fill one vacant Foreign Service position because
there are no more housing slots. Three other positions, previously Foreign Service, are
temporarily filled with excepted service personnel until the number of housing slots can be
increased. USUN has worked extensively with the Department and with the Office of
Management and Budget to provide information and justification for increasing the number of
Foreign Service positions eligible for the housing program from 30 to 35; the request is pending
congressional approval. The OIG team agrees that increasing the number of positions with a
housing benefit will aid recruitment and retention of Foreign Service officers and supports
USUN’s efforts in this regard.

        Two general services employees manage expendable and nonexpendable property. The
management office and small property staff found it difficult to track $3 million worth of
property during the move to the new office building. The mission generated a 2010
nonexpendable property certification with exceptions within the tolerable limits, but the
certification was not a meaningful control device. The Management Controls section of the
report discusses inadequate procedures for transferring out and receiving substantial amounts of
property.

                                          42
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

       A competent contract specialist, with a $100,000 warrant, leads the mission’s
procurement efforts. The mission has strengthened the procurement operation by training other
general services employees to make minor purchases using the government purchase card. The
mission makes extensive use of the purchase card program and monitors it closely.

       The motor pool has three full-time drivers and a fleet of five vehicles. Motor pool
supports the five ambassadors to the USUN. The unit maintains the vehicles well and documents
vehicle use daily.

Facilities Management

        The new USUN building was built through a General Services Administration (GSA)
contract, and GSA is responsible for maintenance and safety. The Department pays an annual
lease amount to GSA that includes most services and utilities. The building process was not
without challenges and construction delays. The move-in date slipped, and finally USUN moved
from interim swing space into the building in August 2010, before the building was fully ready
for occupancy. For several weeks after the move, residents worked in what was still a
construction zone. Elevators were not working well, and for several months, employees would
get stuck regularly. Delivery delays created situations where equipment and furniture were
installed in the wrong order, requiring time-consuming adjustments. The event that prompted
completion of the most pressing items was President Obama’s visit to officially inaugurate the
new building on March 29, 2011.

        Even with that effort to complete outstanding items before March 29, some construction
items remain incomplete. During the OIG team’s visit, Department and USUN security
personnel met with GSA and the city of New York to develop final plans on several security
equipment problems, including the bollards that surround the building. Some exterior finishing is
missing. Many safety problems have been corrected, but a few remain outstanding. In addition to
GSA items, the Department has not completed computer cabling, and some furniture still has not
arrived.
       (b) (5)




       Despite all of these difficulties, occupants are settled into the building and making it
work. Most are now happy with their space and learning how to work around inconveniences.

        Conference rooms throughout the USUN building are often used for small meetings but
are impractical for events that host large numbers of outside participants. Most conference rooms
are small, and all are in classified areas of the building that require escorts and complicated
logistics, particularly if refreshments are involved. In the political section, for example, the
                                         43
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

conference room does not provide adequate seating to host all Security Council counterparts at
one time. The USUN building has a large, multipurpose and press event space on the second
floor that some USUN sections have used successfully for larger events with outside participants.
This space is accessible from the unclassified side of the building and works well for many types
of events.

       Informal Recommendation 34: The U.S. Mission to the United Nations should
       maximize use of the second-floor multipurpose room for hosting negotiating sessions
       with Security Council counterparts and other events that involve large groups and outside
       participants.

The Waldorf Astoria Residence

        An apartment on the top floor of the Waldorf Astoria Towers has served as the official
residence for the USUN Permanent Representative for the past 64 years. The Department has
made several attempts to locate less costly alternatives but has concluded each time that the
Waldorf is the least expensive option. There are several reasons why the current residence works.
The Permanent Representative and USUN pay for a dedicated official residence staff of two and
one-half employees. In addition, the Waldorf provides supplementary cleaning staff as part of the
lease cost. USUN holds many of its representation events at the residence, and Waldorf
employees assist the general services staff in moving furniture and setting up the space for these
events, another significant cost savings. The proximity of the residence to USUN is an added
advantage of the property, making it a desirable location for representation purposes. The current
lease expires in 2011, and the mission is reviewing all options.

Protocol and Representation

        Representational events are an essential multilateral diplomacy tool. Many missions
organize business dinners or receptions at the same time as important UN meetings for this
reason. The Permanent Representative makes effective use of the mission’s representation
budget.

        USUN could not hold successful representation events without a skilled protocol office,
and fortunately it has one. Most events are held either on the 22nd floor of the USUN building or
in the residence of the Permanent Representative at the Waldorf. The office organizes events
throughout the year, but its staff is stretched very thin during the General Assembly when there
may be events nearly every night of the week, occasionally two at the same time. The head of the
protocol office has many years of experience and is training the two newer staff members. All
three are expected to know details of each event so that they can step in at a moment’s notice to
resolve problems seamlessly. The section is known within the mission for its ability to handle
complicated logistics.

        Most of the mission’s FY 2010 $200,000 in representation funds—some from the regular
budget and some from supplemental allocations—supported the Permanent Representative,
events related to the General Assembly and the six committees, and other ambassadorial-level
representation. For unanticipated events or extraordinary lobbying efforts, the Department
occasionally makes additional representational funding available to the mission. The seven
                                         44
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

operational mission sections, however, are not as well funded and find it difficult to mount
working-level representational programs or to reciprocate invitations from their diplomatic
colleagues. In FY 2010, the ECOSOC section, for example, received $1,500 in FY 2010 to
apportion among its 15 officers. The political, press, and management sections used all of their
FY 2010 allocations, but other sections, including ECOSOC, did not use all the funds earmarked
for them.

       Informal Recommendation 35: The U.S. Mission to the United Nations should require
       each operational section to solicit input from all employees about their representational
       priorities, request funds based on concrete proposals, and identify excess funds early
       enough to permit their reapportionment.

Information Resources Management

        The move to the new office building left the information management team struggling to
manage new systems, resolve technical issues, and meet customers’ expectations. The
information resources management unit operates in an environment similar to that of an overseas
mission, handling unclassified, classified, SMART, telephones, and radios. Many of the unit’s 14
employees have not attended Washington information management tradecraft courses, leaving
them without updated technical skills. In addition, the staff interacts daily with customers who
have little time for end-user training. This training vacuum creates a challenging environment for
both customers and the service provider and is discussed in more detail in the next section. Other
areas requiring attention in the information management unit include developing a help desk
operation, creating individual development plans for the unit’s employees, and resolving
outstanding technical issues. Additional recommendations are listed in the classified annex to
this report.

Leveraging Technology

         USUN’s information resource management unit is staffed to support 120 users. The
unit’s actual customer base is 190, however, which includes 3 non-USUN Department offices
that were colocated in the new building following the recent move. In the 3 months before and
during the General Assembly, the unit adds another 40 customers to the mix. In this
underresourced environment, customer requests are handled via telephone, email, and office
visits, and the unit tracks each request on a spreadsheet. During the migration of information to
the computer systems in the new office building, the help desk lost its electronic standard
operating procedures, and the section has had difficulty resolving customer requests in a timely
manner.

Recommendation 31: The U.S. Mission to the United Nations should establish a formal
information resource management help desk operation that is staffed with customer liaisons.
(Action: USUN)

       USUN customers at times face difficulties working with electronic media and using the
Department’s new programs. They work in crisis mode and struggle to find time to manage the
flood of emails, understand how to use SMART, and learn how to operate in a SharePoint
environment. The information resource management unit has an applications instructor to
                                          45
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

provide on-site user training for USUN staff, and the Department maintains an online SMART
training course, but many customers do not take advantage of these resources. (See
Recommendation 12 for related SMART issues.)

       Informal Recommendation 36: The U.S. Mission to the United Nations should establish
       and implement a training regime that requires users to complete online SMART training
       and attend on-site Microsoft Outlook email and SharePoint courses.

        The move to the new USUN building included the installation of new systems and
equipment. Unit staff has not, however, had all the necessary training to keep up with the
changes nor to optimize use of the new systems. Some individual development plans and
position descriptions are outdated and contain no short- or long-term training requirements.
During the inspection the information management officer was in the process of updating some
of the development plans and position descriptions.

       Informal Recommendation 37: The U.S. Mission to the United Nations should update
       individual development plans and position descriptions for each information resource
       management section employee.

         The second-floor multipurpose room contains audiovisual equipment to support press
events arranged by the USUN press office as well as by the Department’s Foreign Press Center,
located in the same building. However, USUN has no dedicated audiovisual technician to meet
the demand for use of this increasingly sophisticated equipment. The mission also frequently
conducts digital video conferences but could do more. At present, information unit staff
members cover video conferencing requests on an ad hoc basis but have neither the time nor the
skills to handle this task on a regular basis. The information management officer has prepared a
request for an additional full-time audiovisual technician position, but the mission has no vacant
position to use for this purpose and has not included a position request in the recent Mission
Strategic and Resource Plan.

       Informal Recommendation 38: The U.S. Mission to the United Nations should
       determine how best to provide audiovisual technician services to the mission, either
       through training existing personnel, reprogramming a position, or requesting additional
       resources.

         A USUN designers group, drawing on representatives from each section, is working with
the information management trainer to develop a USUN SharePoint Web site. The Web site is a
great grass roots effort, but the mission has no project plan that identifies the implementation
steps, timeline, or opportunity for peer review.

       Informal Recommendation 39: The U.S. Mission to the United Nations should designate
       a project manager to oversee design, content, and maintenance of the mission’s
       SharePoint Web site.




                                          46
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Resolving Move-Related Issues

        The move to the new office building occurred 5 months before the inspection began, but
a long technical “punch list” of incomplete items remains. Most of these items require additional
cable installation and the assistance of Department technical staff. The OIG team found cases of
missing network connections and printers that were not networked due to insufficient cabling.
These outstanding issues have a negative impact on productivity, morale, and efficiency.

Recommendation 32: The Bureau of Information Resource Management should send a team to
the U.S. Mission to the United Nations to complete the cable installation project. (Action: IRM)

       USUN transferred several desktop printers from the interim location and installed them in
the new building. Some offices do not make full use of their networked printers but prefer
desktop printers, which are more expensive to maintain and operate. The mission can save
money by eliminating most desktop printers and requiring the use of networked printers.

       Informal Recommendation 40: The U.S. Mission to the United Nations should establish
       a policy that governs the use of networked printers and defines the parameters for the
       limited use of desktop printers.

        In the past, the USUN information management team sent a representative to Washington
to meet with the Bureau of Information Resource Management and IO counterparts at least twice
a year. This practice no longer occurs due to time and budget constraints, but communication and
follow-up on technical and training issues with Washington counterparts remains important so
that USUN can stay current with Department policy and operational changes.

       Informal Recommendation 41: The U.S. Mission to the United Nations should hold
       digital video or telephone conferences twice a month with the Bureau of Information
       Resource Management and the Bureau of International Organization Affairs information
       management staff.

The Research Unit

          The research unit is well regarded by those who regularly use its research capability, but
it is relatively unknown to others within the mission and the Department. The research unit
collection is unique and includes major UN documents dating back to 1945. USUN staff forward
historical and procedural records to the research unit for inclusion in central files and forwarding
to the National Archives and Records Administration. Many of the documents the research unit
collects are held nowhere else; the unit is the sole manager of this segment of the U.S.
Government’s archivable data. In addition to archiving information sent to them or gleaned from
UN publications, the unit’s five technical information specialists and two assistants provide
research services to customers, including USUN staff, who request interpretive and analytical
information on a broad range of political, economic, legal, financial, social, and parliamentary
questions regarding the United Nations. The analysts track General Assembly and Security
Council voting practices to help the Department prepare congressionally mandated reports,
circulate periodical articles to profiled individuals, track UN reform initiatives and UN budget
data since 1946, and archive UN press releases. One member of the research unit is USUN’s
                                          47
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

only certified records manager but has had little involvement with records management
missionwide (see the Operational Effectiveness section).

        The research unit’s goal is to digitize all archival documents, but the staff has made little
progress since the 2003 OIG inspection. Changes in technology and a major systems failure
delayed the project until just a few months before the move to the new building. The move, and
the attendant technological problems, stopped progress, and the project has remained stalled
through the date of this inspection. Records managers in the Department may have information
that would assist the research unit in locating supplemental equipment to complete the
digitization project.

Recommendation 33: The U.S. Mission to the United Nations, in coordination with the Bureau
of Administration, should identify and procure software and scanners needed to digitize archival
records. (Action: USUN, in coordination with A)

        The research unit maintains a file of 537,600 index cards containing information on
significant UN precedents and events, including important cross-references. The cards are a relic
of an earlier time, and although the analysts continue to use them, the ink is degrading and
becoming harder to read. Digitizing the cards makes searches easier and provides open access to
USUN employees and potentially to the Department. The National Archives and Records
Administration requires the cards in digitized form. In 2007, the unit began to enter data from the
cards into a library software program to produce an electronic indexing system. At the time of
the inspection, employees had entered only 18,228 cards. Until all cards are digitized, the unit
runs the risk of losing important historical information.

       Informal Recommendation 42: The U.S. Mission to the United Nations should solicit an
       estimate for digitizing the research unit’s index cards and determine whether it is cost
       effective to do so.




                                           48
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Quality of Life
Equal Employment Opportunity

        USUN’s Equal Employment Opportunity (EEO) counselor has served for more than 20
years in the position and has met all ongoing training requirements. USUN has identified a
second employee to serve as a counselor once she has received the necessary training; she
replaces a second counselor who recently left the mission. Although the mission had posted the
EEO counselor’s name and contact information in a small break room and in the human
resources office, the posting contained little information about the program or USUN’s
commitment to equal opportunity and was not displayed near the much-used elevators. The
mission has held no formal EEO training for the past few years, nor has USUN discussed the
EEO program at town hall meetings. Increased visibility of the program would promote EEO
sensitivity in the workplace.

       Informal Recommendation 43: The U.S. Mission to the United Nations should
       invigorate and publicize its Equal Employment Opportunity program.

Morale

        Morale at USUN is mixed. Some staff members relish the work, the pace, and the
inherent stress of negotiations, must-win votes, and constant crises. Others struggle to find a
work-life balance or perceive unfairness in disparate remuneration systems. Even some Foreign
Service officers who receive housing allowances and 18 percent premium compensation for
extraordinary hours of work occasionally seek curtailments because of the hefty tax liability by
Federal, State, and city authorities on benefits that were intended to be incentives to recruitment
and retention. Foreign Service officers master negotiation skills that will serve them throughout
their careers, but many excepted service staff will remain at USUN for many years, with limited
options to transfer to other government agencies.

         Those mission staff members not on the firing lines of multilateral diplomacy sometimes
find it difficult to see how their jobs support U.S. goals and objectives. Consequently, morale
among employees in support positions varies according to the quality of their supervisors and the
collegiality of the workplace rather than stemming from the intrinsic rewards of a well-fought
UN negotiating session or a stirring General Assembly session.

        Mission leadership has taken steps to address some of these challenges and is committed
to doing more. The mission has worked with the Department to seek, but has not won, legislative
authority to increase the number of positions in the housing allowance program and to receive
parity with temporarily assigned employees from other U.S. Government agencies who do not
pay taxes on their housing allowances. These benefits would facilitate growth in the number of
Foreign Service officers and ensure a balance between officers with policy and overseas
expertise and those with sustained subject matter experience in the UN context.

       USUN managers and leaders face a unique challenge. As one mission employee put it,
the mission is like a mini-Department. It is unlike an overseas mission that has an innate sense of

                                          49
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

community. Nevertheless, mission leaders have made efforts to communicate and build teams
across all 21 floors of the USUN building in spite of, or because of, the unrelenting press of
business. Management notices improve transparency. Senior staff participation in section
meetings and events increases familiarity and a sense that section and individual efforts are
recognized. More can be done, such as taking steps to be as transparent as possible when hiring
excepted service staff: explaining the level of commitment needed, the unavoidable disparities
with Foreign Service benefits, and the limitations on advancement. Also, greater attention to
professional development of mission staff, as outlined in earlier sections of this report, can raise
the overall sense of professionalism and feeling that there is, indeed, a USUN community.




                                          50
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Management Controls
         The Permanent Representative’s memorandum regarding assurance on management
controls, dated August 23, 2010, states that USUN’s systems of management controls, taken as a
whole, comply with the Comptroller General’s standards and the Department’s objectives. It also
states that mission assets are safeguarded against waste, loss, unauthorized use, or
misappropriation.

        USUN’s management controls program is satisfactory overall. Despite management’s
best efforts, however, the OIG team found that property management controls need
strengthening.

Property Management

       In 2010, the mission transferred out property with an approximate original cost of $2.2
million from the old office building with the understanding that the Department would purchase
replacement furniture and equipment for the new office building. With the assistance of the
Bureau of Administration, the mission transferred this property both within the Department and
through donations to schools, prisons, and other organizations. A Bureau of Administration
contractor undertook this large project and updated the appropriate database to reflect the
property transfers outside the mission.

         Although the contractor prepared spreadsheets listing and identifying property as
transferred and updated in the property records, the mission did not prepare form DS-584,
Nonexpendable Property Transaction, for the vast majority of the transfers and failed to
document contemporaneous authorizing and approving acknowledgements from the accountable
property and principal custodial officers, as required by 14 FAH-1 H-434. Also, the mission did
not reflect location changes for retained property in the property application database. As a
result, a large number of manual adjustments to the inventory application were required at year
end, which negated the internal control feature of scanning at the time of transfer.

         The mission received approximately $800,000 of equipment, purchased by the Bureau of
Administration, for the new office building. The mission did not receive packing lists, receiving
reports, or other delivery documentation for this property and thus could not verify whether
shipments were complete. Further, the mission did not complete form DS-1955, Receiving
Worksheet for Nonexpendable Property, required by 14 FAH-1 H-321.5, to update the property
application database. USUN requested the documentation from the Bureau of Administration but
has not received it. Lacking documentation, the mission updated the database by using
information on the property itself, such as serial numbers, and estimating purchase price. As a
result, the mission is not assured that database information is accurate and all property deliveries
are complete and recorded. The mission has requested a property assistance visit from the
Bureau of Administration to review property management procedures.

Recommendation 34: The Bureau of Administration, in coordination with the U.S. Mission to
the United Nations, should conduct a property assistance visit to the mission and issue a trip
report, including findings and recommendations. (Action: A, in coordination with USUN)

                                          51
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 35: The Bureau of Administration should provide the U.S. Mission to the
United Nations with all receiving documentation for furniture and equipment delivered to the
new office building in 2010 and 2011. (Action: A)

Recommendation 36: The U.S. Mission to the United Nations should match furniture and
equipment property delivery records from the Bureau of Administration to entries in its property
application database and update data items, as appropriate. (Action: USUN)

        The OIG team observed other property-related management control deficiencies. For
example, the same employee is charged with taking the annual inventory and maintaining
inventory records. Failing to separate the inventory and record-keeping duties is a management
control vulnerability.

Recommendation 37: The U.S. Mission to the United Nations should separate the record-
keeping and inventory functions and document the responsibilities of each function in the
relevant employees’ work commitments. (Action: USUN)

        Currently, the general services officer is the accountable property officer, and another
employee is the principal custodial officer. Although the Department does not provide guidance
for assigning property management responsibility at domestic organizations, 14 FAH-1 H-112.1
provides guidance for overseas missions, which is useful in the domestic context as well. The 14
FAH cite states that functional responsibility for property management is inherent in the position
of the post management officer, suggesting that the management counselor is the best person to
be the accountable property officer. Such an adjustment at USUN would permit the general
services officer to be the principal custodial officer, thereby strengthening managerial oversight
and improving the control environment.

       Informal Recommendation 44: The U.S. Mission to the United Nations should designate
       the management counselor as the accountable property officer and the general services
       officer as the principal custodial officer.




                                         52
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The Office of Management Policy, Rightsizing, and Innovation, in
coordination with the Bureau of International Organization Affairs, the U.S. Mission to the
United Nations, and the Office of the Legal Adviser, should draft and clear a tailored Presidential
letter of instruction for the Permanent Representative. (Action: M/PRI, in coordination with IO,
USUN, and L)

Recommendation 2: The Bureau of International Organization Affairs, in coordination with
the U. S. Mission to the United Nations, the Bureau of Diplomatic Security, and the Office of the
Under Secretary for Management, should develop standing guidance for support staffing in New
York and Washington and budgeting for permanent representatives with and without Cabinet
rank. (Action: IO, in coordination with USUN, DS, and M)

Recommendation 3: The U.S. Mission to the United Nations should identify the most
appropriate officer in each section to oversee the full range of management issues for that
section, make management one of the top two items of that officer’s work requirements or
critical performance elements, specify management performance objectives for the rating period,
and survey section staff as part of evaluating the officer’s performance. (Action: USUN)

Recommendation 4: The U.S. Mission to the United Nations should convene an ad hoc
working group, chaired by the Deputy Permanent Representative, when vacancies occur to
determine whether to refill positions or reprogram them. (Action: USUN)

Recommendation 5: The U.S. Mission to the United Nations, in coordination with the Bureau
of International Organization Affairs and the Bureau of Human Resources, should reprogram
positions to support the policy and management needs of the mission. (Action: USUN, in
coordination with IO and DGHR)

Recommendation 6: The U.S. Mission to the United Nations, in coordination with the Bureau
of International Organization Affairs and the Bureau of Human Resources, should establish a
timeline, perform desk audits, and update all excepted service position descriptions. (Action:
USUN, in coordination with IO and DGHR)

Recommendation 7: The U.S. Mission to the United Nations should devise standard elements
for all secretary and office management specialist position descriptions and critical performance
elements, in addition to those specific to individual offices, and revise the position descriptions
and job elements accordingly. (Action: USUN)

Recommendation 8: The U.S. Mission to the United Nations should require all Foreign
Service officers who are first-time Civil Service supervisors to take the Foreign Service
Institute’s online training courses PA-449 and PA-495 and monitor for successful completion of
the modules. (Action: USUN)

Recommendation 9: The U.S. Mission to the United Nations should develop a management
policy and procedures for the recruitment, orientation, and development of nonpermanent staff.
(Action: USUN)

                                          53
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 10: The U.S. Mission to the United Nations should establish an overtime
budget baseline and document monthly comparisons of usage against that baseline. (Action:
USUN).

Recommendation 11: The U. S. Mission to the United Nations should standardize
timekeeping procedures across sections and require advance approval of overtime and
compensatory time to the extent possible. (Action: USUN)

Recommendation 12: The U.S. Mission to the United Nations should establish and
disseminate a mission policy on when and how to use SMART emails of record. (Action:
USUN)

Recommendation 13: The U.S. Mission to the United Nations should complete its surveys and
one-on-one customer training to determine customer business needs and assess storage
requirements. (Action: USUN)

Recommendation 14: The U.S. Mission to the United Nations, in coordination with the
Bureau of Information Resources Management, should plan an on-site visit from the bureau’s
Global Modernization Program designers to establish a network with greater storage capacity
and backup capability. (Action: USUN, in coordination with IRM)

Recommendation 15: The U.S. Mission to the United Nations should review the need for
paper file retention in the host country relations section, propose updates to the records
disposition schedule to the Bureau of Administration for submission to the National Archives
and Records Administration, and retire or destroy relevant paper records accordingly. (Action:
USUN)

Recommendation 16: The Bureau of Human Resources, in coordination with the U.S. Mission
to the United Nations, should include multilateral and negotiating skills training and Washington
consultations in the transfer orders of relevant Foreign Service officers who have not served in
multilateral assignments. (Action: DGHR, in coordination with USUN)

Recommendation 17: The U.S. Mission to the United Nations, in coordination with the
Foreign Service Institute, should develop and implement a plan for training groups of new
excepted service and Foreign Service officers in New York. (Action: USUN, in coordination
with FSI)

Recommendation 18: The U.S. Mission to the United Nations should revise the work
requirements of the deputy director of communications to specify the position’s management
responsibilities and commensurate decision-making authority. (Action: USUN)

Recommendation 19: The U.S. Mission to the United Nations should develop an annual
public diplomacy implementation plan that establishes quarterly schedules for panels, briefings,
speeches, electronic outreach, and other public diplomacy activities to promote the mission’s key
priorities. (Action: USUN)

Recommendation 20: The U.S. Mission to the United Nations should establish a draft budget
for public affairs activities at the beginning of each fiscal year. (Action: USUN)
                                         54
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 21: The U.S. Mission to the United Nations should enter its most important
public diplomacy activities aimed at foreign audiences in the Mission Activity Tracker. (Action:
USUN)

Recommendation 22: The U.S. Mission to the United Nations should reduce the amount of
staff time spent on press clips. (Action: USUN)

Recommendation 23: The U.S. Mission to the United Nations, in coordination with the
Bureau of Human Resources, should update and reclassify the three accreditation position
descriptions so that the incumbents of all three positions are fully cross-trained and share
appropriate portions of the workload. (Action: USUN, in coordination with DGHR)

Recommendation 24: (b) (5)



Recommendation 25: (b) (5)




Recommendation 26: The U.S. Mission to the United Nations should require mission
managers to work with the human resources unit to prepare a specific and prioritized training
plan for employees in their section. (Action: USUN)

Recommendation 27: The U.S. Mission to the United Nations, in coordination with the
Foreign Service Institute and the Bureau of International Organization Affairs, should identify
resources available to provide priority training in the most cost-effective manner. (Action:
USUN, in coordination with FSI and IO)

Recommendation 28: The Foreign Service Institute, in coordination with the U.S. Mission to
the United Nations, should offer all or part of the retirement seminar course via digital video
conference to U.S. Mission to the United Nations staff. (Action: FSI, in coordination with
USUN)

Recommendation 29: The U. S. Mission to the United Nations should justify an increase in
the base budget after undertaking a financial planning exercise that includes a training plan with
courses and costs identified, an estimated travel budget based on the previous year’s travel and
any known travel requirements, and a prioritized procurement plan. (Action: USUN)

Recommendation 30: The U.S. Mission to the United Nations should identify and schedule
formal and informal training for each human resources unit employee to provide each with
expertise in her own area of responsibility and basic knowledge of other human resources
policies and programs. (Action: USUN)

Recommendation 31: The U.S. Mission to the United Nations should establish a formal
information resource management help desk operation that is staffed with customer liaisons.
(Action: USUN)

                                          55
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 32: The Bureau of Information Resource Management should send a team
to the U.S. Mission to the United Nations to complete the cable installation project. (Action:
IRM)

Recommendation 33: The U.S. Mission to the United Nations, in coordination with the
Bureau of Administration, should identify and procure software and scanners needed to digitize
archival records. (Action: USUN, in coordination with A)

Recommendation 34: The Bureau of Administration, in coordination with the U.S. Mission to
the United Nations, should conduct a property assistance visit to the mission and issue a trip
report, including findings and recommendations. (Action: A, in coordination with USUN)

Recommendation 35: The Bureau of Administration should provide the U.S. Mission to the
United Nations with all receiving documentation for furniture and equipment delivered to the
new office building in 2010 and 2011. (Action: A)

Recommendation 36: The U.S. Mission to the United Nations should match furniture and
equipment property delivery records from the Bureau of Administration to entries in its property
application database and update data items, as appropriate. (Action: USUN)

Recommendation 37: The U.S. Mission to the United Nations should separate the record-
keeping and inventory functions and document the responsibilities of each function in the
relevant employees’ work commitments. (Action: USUN)




                                         56
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: The U.S. Mission to the United Nations should share with the
Bureau of International Organization Affairs on a case-by-case basis the results of interagency
meetings to which it has special access when that bureau will have to take action and when time
is of the essence.

Informal Recommendation 2: The U.S. Mission to the United Nations should provide clear
guidance on when its Washington policy advisers need to clear documents that have been
prepared by or will be cleared by the U.S. Mission to the United Nations.

Informal Recommendation 3: The U.S. Mission to the United Nations should use the Mission
Strategic and Resource Plan exercise to improve intramission communication and collaboration
by organizing a discussion of goals and accomplishments prior to the start of drafting.

Informal Recommendation 4: The U.S. Mission to the United Nations should determine how
best to sustain an internal strategic planning capability.

Informal Recommendation 5: The U.S. Mission to the United Nations should clarify the roles
and responsibilities of each member of the executive office staff and publish that information
throughout the mission.

Informal Recommendation 6: The U.S. Mission to the United Nations should document
delinquent performance evaluations and any failures to conduct required counseling sessions in
the performance evaluations of the responsible supervisors.

Informal Recommendation 7: The U.S. Mission to the United Nations should train all
supervisors in the appropriate use of performance improvement plans.

Informal Recommendation 8: The U.S. Mission to the United Nations should establish and
implement a policy that requires all personnel to document their overtime and provide employees
with compensation when possible.

Informal Recommendation 9: The U.S. Mission to the United Nations should form a working
group, led by the mission’s records manager and composed of staff with excellent records
management practices and information technology skills. The working group should develop
electronic and paper records management protocols in consultation with managers from each
section and work with the records manager and the information resources staff to standardize
record keeping.



                                         57
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 10: The U.S. Mission to the United Nations should make
Washington consultations a part of the training continuum for relevant excepted service
personnel during the initial 3 months of their employment.

Informal Recommendation 11: The U.S. Mission to the United Nations should conduct a
lessons learned exercise each December, develop a coordinator and nonpermanent staff
handbook, and update that handbook annually.

Informal Recommendation 12: The U.S. Mission to the United Nations should prepare a short
performance review on each area adviser and submit the review to the bureau’s principal deputy
assistant secretary.

Informal Recommendation 13: The U.S. Mission to the United Nations should designate the
political section’s sanctions unit chief as the third deputy in the political section.

Informal Recommendation 14: The U.S. Mission to the United Nations should determine how
the political section can reduce the length of reporting telegrams on open Security Council
meetings by referring end users to available United Nations-produced materials and
supplementing them as needed.

Informal Recommendation 15: The U.S. Mission to the United Nations should consider
creating a second deputy position in the economic and social affairs section whenever the section
has a new position.

Informal Recommendation 16: (b) (5)



Informal Recommendation 17: The U.S. Mission to the United Nations should require public
affairs section chief training for the deputy director of communications position.

Informal Recommendation 18: The U.S. Mission to the United Nations should establish a
channel to inform the Bureau of International Organization Affairs press office leadership of
upcoming press activities.

Informal Recommendation 19: The U.S. Mission to the United Nations should put links to its
institutional social media sites on the mission Web site and continue efforts to develop a strong
institutional Facebook site.

Informal Recommendation 20: The U.S. Mission to the United Nations should include on its
Web site relevant links to information on the Department of State’s main Web site.

Informal Recommendation 21: The U.S. Mission to the United Nations should display the
press and public affairs section’s calendar of activities on SharePoint.

Informal Recommendation 22: The U.S. Mission to the United Nations should make better
use of its entire public affairs staff by giving the section’s secretaries a greater role in producing
transcripts, responding to routine mail, and performing other tasks.

                                           58
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 23: The U.S. Mission to the United Nations should establish and
implement a policy on acknowledging and responding to incoming letter mail and look for other
ways to streamline the process, such as sending all invitations directly to the executive office for
handling.

Informal Recommendation 24: The U.S. Mission to the United Nations should make updating
the “Contact us” function on the mission Web site a high priority when the budget allows and
should limit the email tabulation process to major categories.

Informal Recommendation 25: The U.S. Mission to the United Nations should make the
senior accreditation staff member the supervisor and rating officer for the rest of the
accreditation staff.

Informal Recommendation 26: The U.S. Mission to the United Nations should consolidate all
the host country cases involving potential or confirmed fraud into an annual report to the Bureau
of Consular Affairs.

Informal Recommendation 27: The U.S. Mission to the United Nations should develop a
memorandum of agreement between host country relations and the New York diplomatic
security field office that clearly outlines the responsibilities of each for support to foreign
diplomats and facilities assigned to the United Nations and that establishes regular multiagency
information-sharing sessions.

Informal Recommendation 28: The U.S. Mission to the United Nations should revise the
mission awards program, rotating awards committee chairmanship and membership among
employees and sections, and balancing awards between junior and senior staff.

Informal Recommendation 29: The U.S. Mission to the United Nations should implement a
cross-training plan that provides each financial management office employee with additional
skills and backup responsibilities.

Informal Recommendation 30: The U.S. Mission to the United Nations should document
standard operating procedures for the financial management section.

Informal Recommendation 31: The U.S. Mission to the United Nations should designate
backups for each human resources position, providing on-the-job training to the backup
personnel on each new duty.

Informal Recommendation 32: The U.S. Mission to the United Nations should reorganize the
human resources shared electronic filing system, prohibiting the use of private folders for
completed business documents, deleting or archiving old documents, and establishing clear
subject folders to store current documents.

Informal Recommendation 33: The U.S. Mission to the United Nations should develop written
standard operating procedures for common human resources tasks.




                                          59
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 34: The U.S. Mission to the United Nations should maximize use
of the second-floor multipurpose room for hosting negotiating sessions with Security Council
counterparts and other events that involve large groups and outside participants.

Informal Recommendation 35: The U.S. Mission to the United Nations should require each
operational section to solicit input from all employees about their representational priorities,
request funds based on concrete proposals, and identify excess funds early enough to permit their
reapportionment.

Informal Recommendation 36: The U.S. Mission to the United Nations should establish and
implement a training regime that requires users to complete online SMART training and attend
on-site Microsoft Outlook email and SharePoint courses.

Informal Recommendation 37: The U.S. Mission to the United Nations should update
individual development plans and position descriptions for each information resource
management section employee.

Informal Recommendation 38: The U.S. Mission to the United Nations should determine how
best to provide audiovisual technician services to the mission, either through training existing
personnel, reprogramming a position, or requesting additional resources.

Informal Recommendation 39: The U.S. Mission to the United Nations should designate a
project manager to oversee design, content, and maintenance of the mission’s SharePoint Web
site.

Informal Recommendation 40: The U.S. Mission to the United Nations should establish a
policy that governs the use of networked printers and defines the parameters for the limited use
of desktop printers.

Informal Recommendation 41: The U.S. Mission to the United Nations should hold digital
video or telephone conferences twice a month with the Bureau of Information Resource
Management and the Bureau of International Organization Affairs information management
staff.

Informal Recommendation 42: The U.S. Mission to the United Nations should solicit an
estimate for digitizing the research unit’s index cards and determine whether it is cost effective
to do so.

Informal Recommendation 43: The U.S. Mission to the United Nations should invigorate and
publicize its Equal Employment Opportunity program.

Informal Recommendation 44: The U.S. Mission to the United Nations should designate the
management counselor as the accountable property officer and the general services officer as the
principal custodial officer.




                                          60
                              SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


Principal Officers
                                                                                    Name        Arrival Date
Permanent Representative                                 Ambassador Susan E. Rice                     01/2009
Deputy Permanent Representative                    Ambassador Rosemary A. DiCarlo                    07/2010 9
Acting Alternate Permanent
  Representative for Special Political
  Affairs                                            Ambassador (ret) David B. Dunn                   01/2011
Representative to the Economic and
  Social Council                                      Ambassador Frederick D. Barton                  12/2009
Ambassador for UN Management and
  Reform                                               Ambassador Joseph M. Torsella                  04/2011
Section Chiefs:
   Management                                                              Carol Urban                08/2010
   Host Country                                                         Russell Graham                07/1990
   Political                                                             William Grant                06/2010
   ECOSOC                                                               John F. Sammis                05/2009
   Management and Reform                                             Stephen Lieberman                10/2010
   Press and Public Affairs                                              Mark Kornblau                02/2009
   Regional Security                                                     Timothy Riley                07/2010
Other Agencies:
   Military Staff Committee                                          Col. Robert Whalen               06/2011




9
 Ambassador DiCarlo was Alternate Permanent Representative for Special Political Affairs from 08/2008 until she
assumed the Deputy Permanent Representative position.
                                             61
                                 SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
ECOSOC          Economic and Social Council
EEO             Equal Employment Opportunity
FAH             Foreign Affairs Handbook
FAM             Foreign Affairs Manual
GG              General Grade
GSA             General Services Administration
IO              Bureau of International Organization Affairs
NSC             National Security Council
SMART           State Messaging and Archive Retrieval Toolset
USUN            U.S. Mission to the United Nations
USUN/W          U.S. Mission to the United Nations Washington office




                            62
                SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Appendix: Host Country Files Needing Review

B1 extension of stay requests
Change of status applications
Chronological files
Country files
Diplomatic notes
Identification card photo files for both diplomatic and nondiplomatic personnel (hard copies)
Receipts for collected passports, identification cards, and work authorizations
Records of diplomatic incidents
UN letters identifying accredited journalists
Visa confirmation letters
Work authorization applications and supporting document (already approved)




                                         63
                             SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
         Arlington, VA 22219



   Cables to the Inspector General
  should be slugged “OIG Channel”
      to ensure confidentiality.




   SENSITIVE BUT UNCLASSIFIED
